SIGAR                                           Special Inspector General for
                                                 Afghanistan Reconstruction




                                                             SIGAR Audit 14-83-AR



      Department of State: Nearly 75 Percent of
      All SIGAR Audit and Inspection Report
      Recommendations Have Been
      Implemented




                                                                        JULY
                                                                   2014
SIGAR Audit 14-83-AR/Recommendations to State
                                                JULY 2014



SIGAR
                                                DEPARTMENT OF STATE: NEARLY 75 PERCENT OF ALL SIGAR AUDIT AND
                                                INSPECTION REPORT RECOMMENDATIONS HAVE BEEN IMPLEMENTED

                                                SIGAR AUDIT 14-83-AR
Special Inspector General                       WHAT SIGAR FOUND
for Afghanistan
                                                SIGAR made 111 recommendations to the Department of State (State) from
Reconstruction                                  SIGAR’s inception in January 2008 through March 2014, and 83 of those
                                                recommendations—nearly 75 percent—were implemented by State. Almost half of
WHAT SIGAR REVIEWED                             the implemented recommendations were designed to improve Afghan governance
                                                or promote rule of law and anti-corruption efforts. In addition, analysis showed that
SIGAR initiated this audit to (1) identify
and assess the status of SIGAR                          Almost two thirds of all recommendations were intended to achieve one of
recommendations made to the                              three outcomes: (1) improve State’s award, oversight, and management
Department of State (State) in all                       of contracts or grants; (2) assist State to build and sustain the capacity of
performance audits, financial audits,                    the Afghan government; or (3) ensure accountability over direct
and inspections; and (2) review actions                  assistance funds.
taken or planned by State to address                    Almost half recommended that State, to achieve the intended outcomes,
any open recommendations.                                either (1) establish, improve, or follow existing procedures, policies, or
                                                         other guidance; or (2) improve or implement a plan or strategy.
To accomplish these objectives, SIGAR
identified and examined all 111                 State’s successful and timely implementation of these recommendations resulted
recommendations made to State                   in stronger protections against waste, fraud, and abuse in Afghanistan
between SIGAR’s inception in 2008 and           reconstruction activities. Two recommendations resulted in a total of $103 million
March 31, 2014, and conducted                   put to better use. For example, SIGAR reported that delays in the transfer of funds
analysis to determine the number of             from the Department of Defense to State contributed to project delays and that
open, closed and implemented, and               these funds were about to expire. Based on SIGAR’s recommendation, the transfer
closed but not implemented                      of funds was expedited. Four additional recommendations resulted in the recovery
recommendations.                                of more than $6.6 million of unused funds and questioned costs. For example,
                                                SIGAR found that that an Afghan recipient of State funds did not use them as
SIGAR categorized each                          intended, but rather kept them for himself.
recommendation by broad sector,
recommended action, and intended                SIGAR closed 24 recommendations for several reasons:
outcome. Finally, SIGAR examined                        Thirteen recommendations were closed because SIGAR planned to
documentation that State provided for                    conduct additional audit work that could supersede the
each recommendation to determine any                     recommendations.
quantifiable financial benefit in the form              Four recommendations were closed because State’s failure to take timely
of cost savings or recovered funds.                      action rendered the recommendations moot. In SIGAR’s view, if State had
This audit report contains no new                        taken timely action, improvements could have been made conducting
recommendations.                                         Afghan elections, addressing challenges faced by female voters, and
                                                         supporting counterinsurgency efforts by promoting Afghan employment.
State commented that it is committed                    Four recommendations were closed because, although State did not fully
to strong oversight and the effective use                implement the recommendations, it took some actions towards
of U.S. government funding, and stated                   addressing their intent.
that SIGAR’s audits demonstrate the                     Two recommendations were closed because other agencies rather than
value of independent oversight, allowing                 State implemented the recommendations.
State to recover $6.6 million                           One recommendation was closed because State did not concur with the
appropriated to the agency for                           recommendation and took no action.
reconstruction programs in Afghanistan.
                                                Four of the 111 recommendations remain open. As of July 2014, three of these
                                                recommendations were open for 6 months and one recommendation for one year.



      For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
July 17, 2014


The Honorable John F. Kerry
Secretary of State


This report discusses the results of SIGAR’s audit of the status of recommendations made to
the Department of State (State) since SIGAR’s inception in January 2008. Specifically, we (1)
identified and assessed the status of SIGAR recommendations made to State in all
performance audits, financial audits, and inspections; and (2) reviewed actions taken or
planned by State to address any open recommendations. We found that 107 of 111
recommendations made to State are closed, and 83 of these recommendations were
implemented. Two recommendations resulted in a total of $103 million put to better use and
four additional recommendations resulted in the recovery of more than $6.6 million. For
example, we identified that a lack of communication between agencies and delays in project
execution resulted in funds at risk of expiring. Additionally, we found that an Afghan recipient
of State assistance funds did not use them, but rather kept them for himself. As of July 2014,
four recommendations remained open. We are not making any recommendations based on
our findings at this time.
We received written comments on a draft of this report from State, which noted the
department’s commitment to strong oversight and effective use of government funding.
According to State, SIGAR’s audits helped the department recover $6.6 million appropriated to
the agency for reconstruction programs in Afghanistan. State also provided technical
comments that we incorporated, as appropriate. State’s comments are reproduced in
appendix IV.
SIGAR conducted this work under the authority of Public Law No. 110‐181, as amended, and
the Inspector General Act of 1978, as amended; and in accordance with generally accepted
government auditing standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                            TABLE OF CONTENTS


Background .................................................................................................................................................................. 1 

SIGAR Closed 107 of 111 Recommendations Made to State .................................................................................. 2 
Four SIGAR Recommendations Made to State Remain Open .................................................................................. 7 
Conclusion.................................................................................................................................................................... 8 

Agency Comments ....................................................................................................................................................... 8 
Appendix I - Scope and Methodology ......................................................................................................................... 9 
Appendix II - All SIGAR Recommendations Made to the Department of State....................................................... 10 

Appendix III - Additional Tables ................................................................................................................................. 43 
Appendix IV - Comments from the Department of State ......................................................................................... 46 
Appendix V - Acknowledgments ................................................................................................................................ 47 


TABLES

Table 1 - All SIGAR Recommendations Made to State, by Report Type and Disposition ........................................ 2 

Table 2 - All SIGAR Recommendations Made to State, by Sector............................................................................. 3 
Table 3 - All SIGAR Recommendations Made to State, by Recommended Action................................................. 43 
Table 4 - All SIGAR Recommendations Made to State, by Intended Outcome ...................................................... 43 

Table 5 - Recommendations Implemented by State, by Intended Outcome ......................................................... 44 
Table 6 - Recommendations Not Implemented by State, by Intended Outcome................................................... 45 
Table 7 - Open Recommendations Made to State, by Intended Outcome ............................................................. 45 


FIGURES

Figure 1 - All Recommendations Made to State, by Intended Outcome .................................................................. 3 

Figure 2 - Recommendations Implemented by State, by Intended Outcome .......................................................... 4 
Figure 3 - Recommendations Not Implemented by State, by Intended Outcome ................................................... 5 


ABBREVIATIONS

                    State                                    U.S. Department of State




SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                          Page i
SIGAR is responsible for the independent and objective conduct and supervision of audits and investigations of
reconstruction activities in Afghanistan, and is required to keep “the Secretary of State and the Secretary of
Defense fully and currently informed about problems and deficiencies relating to the administration of such
programs and operations and the necessity for and progress on corrective action.”1 We initiated this audit to
(1) identify and assess the status of SIGAR recommendations made to the Department of State (State) in all
performance audits, financial audits, and inspections; and (2) review actions taken or planned by State to
address any open recommendations. To accomplish these objectives, we examined all recommendations
made to State from SIGAR’s inception in January 2008 through March 2014, to determine the number of open
and closed recommendations. We conducted additional analysis on each recommendation closed by SIGAR,
including examining documentation provided by State and correspondence between SIGAR and State, to place
each closed recommendation into one of two categories:
          Closed and implemented: A recommendation closed by SIGAR because State provided sufficient
           evidence that it addressed the intent of the recommendation.
          Closed but not implemented: A recommendation not implemented but considered closed by SIGAR
           because (1) SIGAR determined that based on information provided by State, a delay in implementation
           rendered the recommendation moot; or (2) SIGAR determined not to pursue the recommendation to
           closure for one of several reasons. For example, SIGAR may have decided to initiate new work on the
           recommendation topic.
Additionally, we reviewed all recommendations made to State and categorized each one by sector area,
intended outcome, and recommended action. Finally, we examined documentation provided by State for each
recommendation to determine any quantifiable financial benefit in the form of cost savings or recovered funds.
We conducted our audit work in Washington, D.C., from February through May 2014, in accordance with
generally accepted government auditing standards. Appendix I contains more information on our audit’s scope
and methodology.


BACKGROUND

The Office of Management and Budget Circular A-50 provides policies and procedures to agencies for resolving
audit findings and taking corrective action on recommendations. Audit and inspection recommendation follow-
up is a shared responsibility of agency management officials and auditors. Corrective action taken by agency
management on resolved findings and recommendations is essential for improving the effectiveness and
efficiency of government operations. Circular A-50 requires agencies to establish systems to ensure the prompt
and proper resolution and implementation of monetary and non-monetary audit findings and
recommendations.
SIGAR’s recommendation follow-up begins with SIGAR’s transmittal of the report and recommendations to
State. The transmission includes a request that the agency provide documentation on the corrective actions
taken and/or target dates for completing the corrective actions for each recommendation. State’s Office of the
Deputy Chief Financial Officer, Office of Management Controls, acts as a liaison point of contact for
recommendation tracking and follow-up and is the entity responsible for reporting implementing actions and
progress on recommendations to SIGAR. Based on State’s response, we determine if the agency’s actions
constitute sufficient corrective action and determine the implementation status for each recommendation of
either “open” or “closed.”




1   5 USC App. 3 § 8G note.

SIGAR Audit 14-83-AR/Recommendations to State                                                           Page 1
SIGAR CLOSED 107 OF 111 RECOMMENDATIONS MADE TO STATE

We identified 111 recommendations made to State between SIGAR’s inception in 2008 and March 31, 2014.
Our audit found that SIGAR closed 107 recommendations (96 percent), with 83 recommendations closed and
implemented and 24 closed but not implemented. Four recommendations made to State remain open. Table 1
shows the total number of reports and recommendations by report type—performance audit, financial audit, or
inspection—as well as the status of each recommendation as open, closed–implemented, or closed–not
implemented. Appendix II contains a list of all recommendations and their respective report number and
issuance date, report title, status, sector, recommended action, and intended outcome.

    Table 1 - All SIGAR Recommendations Made to State, by Report Type and Disposition
                              Total Number of                                   Closed–                 Closed–
    Report Type                                            Open
                             Recommendations                                  Implemented          Not Implemented

    Performance Audits
                                    103                      3                      76                     24
    (26 reports)

    Financial Audits
                                     7                       1                       6                      0
    (2 reports)

    Inspections
                                     1                       0                       1                      0
    (1 report)

    All Reports                     111                      4                      83                     24

    Source: SIGAR analysis



Our analysis of the 111 SIGAR recommendations to State also categorized each recommendation by sector
area, intended outcome, and recommended action. Our analysis found:
           Fifty-four recommendations relate to sectors concerning Afghan governance or efforts to promote the
            rule of law and fight corruption.
           Sixty-nine recommendations were intended to achieve one of three outcomes (1) improve the award,
            oversight, and management of contracts, grants, or cooperative agreements; (2) build and sustain the
            capacity of the Afghan government; or (3) ensure accountability over direct assistance funds.
           Fifty-one recommendations recommended that State either (1) establish, improve, or follow existing
            procedures, policies, or other guidance; or (2) improve or implement a plan or strategy.
Table 2 and figure 1 depict the total number of recommendations categorized by the largest representative
sector areas and intended outcomes, respectively.2




2 Appendices II and III contain additional analytical breakdown of recommendations by sector, intended outcome, and
recommended action.



SIGAR Audit 14-83-AR/Recommendations to State                                                                    Page 2
 Table 2 - All SIGAR Recommendations Made to State, by Sector
                                                                 Number of                   Percent of Total
 Sector Area
                                                              Recommendations               Recommendations

 Afghan governance                                                     29                          26.13%

 Rule of law/anti-corruption                                           25                          22.52%

 Gender issues                                                         9                           8.11%

 Infrastructure                                                        9                           8.11%

 Revenue generation/financial sector                                   9                           8.11%

 Elections                                                             7                           6.31%

 Agriculture                                                           5                           4.50%

 Counter-narcotics                                                     5                           4.50%

 Security                                                              5                           4.50%

 Education                                                             3                           2.70%

 Energy                                                                2                           1.80%

 Cross-cutting: Contract award and management                          8                           7.21%

 Cross-cutting: U.S. resource and information
                                                                       7                           6.31%
 management

 Source: SIGAR analysis
 Note: Twelve recommendations were classified under more than one sector area, and therefore the total number of
 recommendations depicted adds up to more than 111 and more than 100 percent.


 Figure 1 - All Recommendations Made to State, by Intended Outcome




 Source: SIGAR analysis
 Notes: Percentages have been rounded. Numbers of recommendations are in parentheses.



SIGAR Audit 14-83-AR/Recommendations to State                                                                  Page 3
State Implemented 83 of 111 Recommendations Made by SIGAR, Resulting in
Better Accountability of Funds Spent on Reconstruction in Afghanistan

Of the 111 recommendations made to State, 83
recommendations—or almost 75 percent—were                     Figure 2 - Recommendations Implemented by State,
implemented by State. Our analysis categorized                by Intended Outcome
the implemented recommendations by sector
area, intended outcome, and recommended
action:
          Forty-nine of the implemented
           recommendations were intended to
           achieve one of three outcomes: (1)
           improve the award, oversight, and
           management of contracts, grants, or
           cooperative agreements; (2) build and
           sustain the capacity of the Afghan
           government; or (3) increase coordination
           and information sharing. Figure 2
           identifies the 83 recommendations
           implemented by State, categorized by
           intended outcome.
          Forty-one of the implemented
           recommendations relate to sectors
           concerning Afghan governance or efforts
           to promote the rule of law and fight
           corruption.
          Thirty-nine of the implemented
           recommendations suggested that State
                                                              Source: SIGAR analysis.
           either (1) establish, improve, or follow
           existing procedures, policies, or other            Notes: Percentages have been rounded. Number of
                                                              recommendations is in parenthesis.
           guidance; or (2) improve or implement a
           plan or strategy.
The successful and timely implementation of these recommendations by State has resulted in stronger
protections against waste, fraud, and abuse in reconstruction activities in Afghanistan, including:
Recommendation to Develop a New Audit Policy for Foreign Recipients of Grants and Cooperative Agreements:
One recommendation implemented by State was made as part of an audit of the $315.3 million in grants and
cooperative agreements that State awarded for reconstruction activities in Afghanistan,3 resulting in the
establishment of a new policy requiring financial and/or program audits of awards made to foreign recipients.4
According to State, the policy increases the likelihood that awarded funds will be properly accounted for and
used for their intended purposes. The new policy applies to all of State’s offices and posts that issue federal
assistance awards—not just those operating in Afghanistan—and went into effect less than 5 months after we
made the recommendation.
Recommendation Regarding a New Subcontractor Electronic Payment Policy: In response to another
recommendation made as part of an audit of U.S. efforts to develop the Afghan financial sector and to assess

3SIGAR Audit 13-12, Department of State’s Assistance Awards for Afghanistan Reconstruction Activities Are Largely
Unaudited, July 8, 2013.
4   The policy applies to any foreign recipient that expends $500,000 or more in State awards in one year.

SIGAR Audit 14-83-AR/Recommendations to State                                                                       Page 4
controls of U.S. funds flowing through the Afghan economy, State established a new policy requiring its
contractors in Afghanistan to pay Afghan subcontractors through a bank capable of electronic funds transfers
or a licensed hawalla dealer.5 In our view, this new policy helps the Afghan and U.S. governments in tracking
funds moving from person to person, thus decreasing their vulnerability to fraud or to diversion by insurgents.


Twenty-four Recommendations Closed but Not Implemented Due to State Inaction,
Non-Concurrence by State, or Other Actions not Related to State

Of the 111 recommendations made to State,
24 recommendations were closed but not                 Figure 3 - Recommendations Not Implemented by State,
implemented. Of these, we closed four                  by Intended Outcome
recommendations because State failed to
implement them in a timely manner and the
recommendations were rendered moot, 19
recommendations were closed for reasons not
directly related to State’s actions, and one
recommendation was closed because State
did not concur with the recommendation.
Figure 3 identifies the recommendations
closed but not implemented by State by their
intended outcomes.

State’s Failure to Take Timely Action
Rendered Four Recommendations Moot
We closed four recommendations because
State’s failure to take action in a timely
manner rendered the recommendations moot.
Recommendations Regarding Afghan 2010
Election Capacity: We made two
recommendations in a performance audit in
September 2009 after the Afghan presidential
elections in August 2009. The purpose of
these recommendations was to help State         Source: SIGAR analysis
build sustainable capacity in Afghanistan’s     Notes: Percentages have been rounded. Number of
electoral institutions in anticipation of the   recommendations is in parenthesis.
2010 parliament and district council elections.
However, SIGAR closed these recommendations after the 2010 elections passed without implementation by
State.6
Recommendations Regarding Afghan First Initiative: We closed two recommendations made regarding the
Afghan First Initiative, a program intended to support counterinsurgency initiatives by promoting Afghan
employment, because State did not implement the recommendations before the program’s authorization
expired in September 2012, 8 months after the report’s issuance.7

5 SIGAR Audit 11-13, Limited Interagency Coordination and Insufficient Controls over U.S. Funds in Afghanistan Hamper

U.S. Efforts to Develop the Afghan Financial Sector and Safeguard U.S. Cash, July 20, 2011. A hawalla dealer is an
individual engaged in an informal money transfer system in the Middle East and South Asia.
6   SIGAR Audit 09-06, Strategy and Resources Needed to Sustain Afghan Electoral Capacity, September 22, 2009.
7SIGAR Audit 12-06, Afghan First Initiative Has Placed Work with Afghan Companies, but Is Affected by Inconsistent
Contract Solicitation and Vetting, and Employment Data Is Limited, January 31, 2012.

SIGAR Audit 14-83-AR/Recommendations to State                                                                        Page 5
Twenty Recommendations Closed for Other Reasons
We closed 20 recommendations for other reasons, including 19 recommendations that were not implemented
for reasons not directly related to actions by State and one recommendation that was not implemented
because State did not concur with the recommendation and took no action. Specifically:
        We closed 13 recommendations because we planned additional audit work on the subject of the
         recommendations.8
        We closed four recommendations because although State did not implement the recommendations, it
         took some actions towards addressing the general intent of the recommendations.9 Because of a lack
         of funds at risk, we closed these recommendations and did not pursue further action.
        We closed two recommendations because although the recommendations were made jointly to
         multiple agencies, including State, other agencies took responsibility for implementing the
         recommendations.10
        We closed one recommendation because State did not concur with the recommendation and took no
         action.11 In the joint recommendation made to the Secretaries of State and Defense, we
         recommended steps be instituted to record the serial numbers of cash disbursed to contractors and
         provide the data to U.S. law enforcement officials. In its comments, State responded that it does not
         provide sufficient amounts of cash payments to contractors to warrant additional financial controls.


Recommendations Resulted in $103 Million Put to Better Use and More Than $6.6
Million Recovered
Two of our recommendations made to State in two performance audit reports resulted in $103 million put to
better use,12 and four recommendations from four reports resulted in the recovery of more than $6.6 million.13
Our audit of the Afghanistan Infrastructure Fund projects identified that an ongoing delay in the transfer of
$101 million in funds from the Department of Defense to State contributed to delays in project execution and
that the funds were at risk of expiring. Our recommendation that the transfer be expedited resulted in
immediate action and the signing of a memorandum by State and other agencies to expedite the transfer of



8SIGAR Audit 09-03, A Better Management Information System Is Needed to Promote Information Sharing, Effective
Planning, and Coordination of Afghanistan Reconstruction Activities, July 30, 2009; SIGAR Audit 10-15, U.S.
Reconstruction Efforts in Afghanistan Would Benefit from a Finalized Comprehensive U.S. Anti-Corruption Strategy, August
5, 2010; SIGAR Audit 11-05, Actions Needed to Mitigate Inconsistencies In and Lack of Safeguards over U.S. Salary
Support to Afghan Government Employees and Technical Advisors, October 29, 2010.
9SIGAR Audit 10-13, Greater Coordination Needed in Meeting Congressional Directives to Address and Report on the
Needs of Afghan Women and Girls, July 30, 2010.
10 SIGAR Audit 12-01, Actions Needed to Better Assess and Coordinate Capacity-Building Efforts at the Ministry of

Agriculture, Irrigation, and Livestock, October 20, 2011; SIGAR Audit 12-12, Fiscal Year 2011 Afghanistan Infrastructure
Fund Projects Are behind Schedule and Lack Adequate Sustainment Plans, July 30, 2012.
11 SIGAR Audit 11-13, Limited Interagency Coordination and Insufficient Controls over U.S. Funds in Afghanistan Hamper

U.S. Efforts to Develop the Afghan Financial Sector and Safeguard U.S. Cash, July 20, 2011.
12 SIGAR Audit 09-04, Actions Needed to Resolve Construction Delays at the Counter-Narcotics Justice Center, August 27,

2009; SIGAR Audit 12-12.
13The majority of these funds were recovered and returned to the U.S. Treasury. However, $2.82 million were direct
assistance funds recovered from a contractor and returned to the Afghan government. SIGAR Audit 11-08, Afghanistan's
National Solidarity Program Has Reached Thousands of Afghan Communities, but Faces Challenges that Could Limit
Outcomes, March 22, 2011; SIGAR Audit 11-17, The U.S. Civilian Uplift in Afghanistan Has Cost Nearly $2 Billion, and
State Should Continue to Strengthen Its Management and Oversight of the Funds Transferred to Other Agencies,
September 8, 2011; SIGAR Audit 12-13, Selected Public Diplomacy Awards Mostly Achieved Objectives, but Embassy Can
Take Steps to Enhance Grant Management and Oversight, July 30, 2012; SIGAR Financial Audit 14-11-FA, Department of
State’s Demining Activities in Afghanistan: Audit of Costs Incurred by Afghan Technical Consultants, December 3, 2013.

SIGAR Audit 14-83-AR/Recommendations to State                                                                      Page 6
the funds.14 Additionally, our audit of the construction of the Counter-narcotics Justice Center identified $1.4
million in funds that remained unused due to a lack of communications between agencies. Our
recommendation that State’s Bureau of International Narcotics and Law Enforcement amend the original
scope of work to use the funds for utility upgrades resulted in the use of the remaining funds for the upgrades
and an additional $600,000 in estimated efficiency savings.15
Our audit of the costs for establishing and sustaining the number of U.S. civilian employees deployed to
Afghanistan—also known as the “civilian uplift”—identified more than $3.5 million in unutilized State transfers
to the Department of Transportation and resulted in the return of the funds from the Department of
Transportation to the U.S. Treasury.16 Finally, our audit of Afghanistan’s National Solidarity Program found that
a hawalla dealer had not delivered about $2.8 million in grants to its intended community, and instead had
retained the funds.17 We recommended that the U.S. Ambassador to Afghanistan urge the Afghan government
to continue its efforts to recover those funds and either reprogram the funds or return the funds to the
Afghanistan Reconstruction Trust Fund. In response, the U.S. Embassy in Kabul reported immediate action was
taken—the Afghan Attorney General took the hawalla dealer into custody, and the National Solidarity Program
hired legal counsel to help retrieve the stolen funds. Ultimately, the $2.8 million was reimbursed to the Afghan
government.


FOUR SIGAR RECOMMENDATIONS MADE TO STATE REMAIN OPEN

Four recommendations remained open as of July 2014—three of these recommendations were open for 6
months and one recommendation for a year.18 The following recommendations that we made to State remain
open:
           SIGAR Financial Audit 13-11, Department of State’s Afghanistan Media Project: Audit of Incurred
            Costs by HUDA Development Organization Afghanistan, issued on July 26, 2013, made three
            recommendations to the State Grants Officer for three grants funding the construction of five Afghan
            university media centers.19 One recommendation identified more than $2.4 million in questioned
            costs and recommended State determine the allowability of those costs and recover funds as
            appropriate. In its response, State acknowledged that more than $860,000 of these funds are not
            allowable and expressed its intention to recover the funds. However, according to State, although it
            will pursue recovery of all funds due via the closeout process of each of the three grants, it is delaying
            action on this recommendation until the completion of an ongoing SIGAR investigation related to the
            financial audit.
           SIGAR Audit 14-26-AR, Support for Afghanistan’s Justice Sector: State Department Programs Need
            Better Management and Stronger Oversight, issued on January 24, 2014, made four
            recommendations to the Secretary of State to strengthen U.S. government efforts to develop


14   SIGAR Audit 12-12.
15   SIGAR Audit 09-04.
16 In2009, President Obama announced a new, comprehensive U.S. strategy for Afghanistan aimed at disrupting,
dismantling, and defeating al-Qaeda. A key element of the strategy is the expansion of civilian-led efforts to build Afghan
governing capacity at all levels, improve the rule of law, and initiate sustainable economic growth. A significant increase or
“uplift” in U.S. civilian employees deployed to Afghanistan supports this effort. See SIGAR Audit 11-17. Two additional
audits issued recommendations to State that resulted in the return of funds to the U.S. Treasury. SIGAR Audit 12-13
recovered more than $244,000 and SIGAR Financial Audit 14-11-FA recovered more than $8,000.
17   SIGAR Audit 11-08.
18SIGAR made three of these recommendations in one performance audit report, and one recommendation in a financial
audit report.
19SIGAR Financial Audit 13-11, Department of State’s Afghanistan Media Project: Audit of Incurred Costs by HUDA
Development Organization Afghanistan, July 26, 2013.

SIGAR Audit 14-83-AR/Recommendations to State                                                                           Page 7
        Afghanistan’s justice sector.20 Three of the four recommendations remain open. We are awaiting
        additional documentation from State regarding implementation of these three recommendations.


CONCLUSION

Although four recommendations still remain open, State successfully implemented almost 75 percent of all
recommendations made by SIGAR since its inception in January 2008. Prompt and timely corrective action by
State has resulted in myriad positive outcomes, including the implementation of two policies that assist in
ensuring accountability of U.S. funds paid to foreign contractors and subcontractors; putting $103 million to
better use; and the recovery of more than $6.6 million. State demonstrated that the timely closure of
recommendations can improve the effectiveness and efficiency of State operations and ensure better
accountability of U.S. funds spent on reconstruction activities in Afghanistan.


AGENCY COMMENTS

We provided a draft of this report to State for its review and comment. In its written comments, State noted
that it is committed to strong oversight and effective use of government funding.
State also provided technical comments, which we incorporated into the report as appropriate. State’s written
comments are reproduced in appendix IV.




20 SIGAR Audit 14-26-AR, Support for Afghanistan’s Justice Sector: State Department Programs Need Better Management

and Stronger Oversight, January 24, 2014.

SIGAR Audit 14-83-AR/Recommendations to State                                                                Page 8
APPENDIX I - SCOPE AND METHODOLOGY

We initiated this audit to conduct analysis of all recommendations made to State by SIGAR from our inception
in January 2008 through March 2014. Specifically, we (1) identified and assessed the status of SIGAR
recommendations made to State in all performance audits, financial audits, and inspections; and (2) reviewed
actions taken or planned by State to address any open recommendations.
To identify and assess the status of recommendations made to State, we compiled a list of all
recommendations issued by SIGAR that were directed, in whole or in part, to State, along with the number,
type, and issue date for the report containing the recommendation. We conducted further analysis on each
closed recommendation to classify it as either “closed and implemented” or “closed but not implemented” by
examining internal SIGAR analysis and records, including correspondence with State officials, and
documentation provided by State. We also met with State’s Office of the Deputy Chief Financial Officer, Office
of Management Controls, to discuss State’s process for recommendation tracking and follow-up.
To further analyze the recommendations SIGAR made to State, we reviewed each report and recommendation
and classified each recommendation by three topical categories: (1) the broad sector, (2) the recommended
action to be taken by State, and (3) the intended outcome of successful implementation of the
recommendation. Some reports focused on more than one sector area—we categorized some
recommendations as focusing on an additional sector category to reflect this. Each recommendation was
grouped into one recommended action or intended outcome category. To quantify funds recovered that were
associated with a recommendation, we reviewed additional SIGAR documentation, including audit
accomplishment reports.
To review the actions taken or planned by State to address any open recommendations, we compiled a list of
all recommendations previously identified as open. We provided this list to State for its review, and
subsequently interviewed officials from State’s Office of Management Controls about the status of the open
recommendations and State’s efforts to implement the recommendations. We also reviewed documentation
State provided regarding its actions and plans related to implementing the open recommendations. Two of the
open recommendations made to State were issued jointly with State’s Office of Inspector General. Because
State’s Office of Inspector General took the lead on following up on the recommendations, we relied on this
office to determine the status of the two recommendations.
We did not use or rely on computer-processed data for purposes of the audit objectives. To assess internal
controls, we reviewed State’s procedures for responding to tracking and resolving recommendations made by
SIGAR. The results of our assessment are included in the body of this report.
We conducted our audit work in Washington, D.C., from February through June 2014 in accordance with
generally accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. This audit was performed by SIGAR under the authority
of Public Law No. 110-181, as amended, and the Inspector General Act of 1978, as amended.




SIGAR Audit 14-83-AR/Recommendations to State                                                            Page 9
APPENDIX II - ALL SIGAR RECOMMENDATIONS MADE TO THE DEPARTMENT OF STATE

 Report          Report Title                Recommendation Text                                       Status         Sector(s)        Recommended           Intended
 Number and                                                                                                                            Action                Outcome
 Issue Date

 Performance     A Better Management         The development of an integrated management
 Audit 09-03     Information System Is       information system will require the participation and
                 Needed to Promote           coordination of multiple agencies and commands.
                 Information Sharing,        Therefore, we are addressing the three
 July 30, 2009
                 Effective Planning, and     recommendations below to each of the key agencies and
                 Coordination of             commands, so that they, together, will commit to
                 Afghanistan                 developing an integrated information solution.
                 Reconstruction Activities
                                              To provide a common operating picture of U.S.           Closed–Not     Cross-cutting:   Establish or          Increase
                                               reconstruction programs and projects in Afghanistan,    Implementedb   U.S. Resource    improve a             coordination and
                                               SIGAR recommends that the Secretary of State,                          and              database or           information
                                               Secretary of Defense, and the Acting Administrator of                  Information      information system    sharing
                                               the U.S. Agency for International Development (in                      Management
                                               coordination with the U.S. Ambassador to Afghanistan
                                               and the Commanding General, U.S. Central
                                               Command) work together to jointly develop an
                                               integrated management information system, or
                                               comparable integrated information solution, for
                                               Afghanistan reconstruction activities.

                                              SIGAR also recommends that the reconstruction           Closed–Not     Cross-cutting:   Ensure appropriate    Increase
                                               stakeholders appoint an executive agent to              Implementedb   U.S. Resource    personnel             coordination and
                                               coordinate the overall interagency development and                     and                                    information
                                               implementation of an integrated management                             Information                            sharing
                                               information system or comparable integrated                            Management
                                               information solution, including responsibilities for
                                               progress and issue resolution.

                                              SIGAR recommends that the executive agent, once         Closed–Not     Cross-cutting:   Establish, improve,   Increase
                                               appointed, should work with stakeholder entities to,                   U.S. Resource    or implement a        coordination and



SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                           Page 10
 Report          Report Title                 Recommendation Text                                           Status         Sector(s)      Recommended          Intended
 Number and                                                                                                                               Action               Outcome
 Issue Date
                                                 at a minimum, determine interagency requirements           Implementedb   and            plan or strategy     information
                                                 for an integrated management information system or                        Information                         sharing
                                                 comparable integrated information solution that                           Management
                                                 takes into account the various systems and methods
                                                 currently used to collect reconstruction data; develop
                                                 a plan to ensure that data integrity, consistency,
                                                 accuracy, and completeness are taken into
                                                 consideration in any system development; and
                                                 identify funding and resource requirements to
                                                 implement the development and sustainment of the
                                                 system.

 Audit 09-04     Actions Needed to Resolve    To expedite the construction of the planned detention
                 Construction Delays at the   facilities at the Counter-Narcotics Justice Center in
 August 27,
                 Counter-Narcotics Justice    Kabul, Afghanistan and to utilize approximately $1.4
 2009
                 Center                       million in remaining U.S. appropriations we recommend
                                              that the Department of State’s Bureau of International
                                              Narcotics and Law Enforcement Affairs:
                                               Amend the original scope of work under interagency          Closed–        Counter-       Modify contract      Ensure
                                                support agreement number 2078728M32 with the                Implemented    narcotics;     language or other    construction of
                                                U.S. Army Corps of Engineers - Afghanistan Engineer                        Rule of law/   procurement action   facilities are
                                                District to include the utility upgrades for the Counter-                  anti-                               completed and
                                                Narcotics Justice Center in Kabul, Afghanistan, that                       corruption                          used as intended
                                                remain under that agreement, or reprogram those
                                                funds to accomplish the same work through another
                                                mechanism.
                                              To expedite the construction of the planned detention
                                              facilities at the Counter-Narcotics Justice Center in
                                              Kabul, Afghanistan and to utilize approximately $1.4
                                              million in remaining U.S. appropriations we recommend
                                              that the Department of State’s Bureau of International
                                              Narcotics and Law Enforcement Affairs:
                                               Modify the interagency support agreement number             Closed–        Counter-       Modify contract      Ensure



SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                             Page 11
 Report          Report Title               Recommendation Text                                          Status         Sector(s)      Recommended           Intended
 Number and                                                                                                                            Action                Outcome
 Issue Date
                                                2078728M32 with the U.S. Army Corps of Engineers -       Implemented    narcotics;     language or other     construction of
                                                Afghanistan Engineer District to increase the amount                    Rule of law/   procurement action    facilities are
                                                of funding to cover the costs of constructing the                       anti-                                completed and
                                                additional detention facility envisioned under the                      corruption                           used as intended
                                                original second phase of construction for the Counter-
                                                Narcotics Justice Center in Kabul, Afghanistan, or
                                                alternatively use another mechanism.
 Audit 09-06     Strategy and Resources     To help build sustainable capacity of Afghanistan’s
                 Needed to Sustain Afghan   electoral institutions, we recommend that the U.S.
 September 22,
                 Electoral Capacity         Ambassador to Afghanistan, in consultation with the U.S.
 2009
                                            Agency for International Development:
                                             Assist the Government of the Islamic Republic of           Closed–Not     Elections      Establish, improve,   Build and sustain
                                              Afghanistan jointly develop, with the Independent          Implementeda                  or implement a        Afghan
                                              Election Commission, United Nations, and other                                           plan or strategy      government
                                              stakeholders, a detailed strategic plan for capacity                                                           capacity
                                              development. This plan should include mutual
                                              expectations and benchmarks for developing
                                              sustainable institutional electoral capacity; a
                                              commensurate Afghan budget and human resource
                                              structure capable of sustaining the electoral
                                              processes; and training and professional
                                              development for the Independent Election
                                              Commission and the Electoral Complaints
                                              Commission, if integrated as a permanent presence
                                              into the election process.
                                            To ensure that capacity building and transfer of skills
                                            occur between technical advisors and Independent
                                            Election Commission staff, we recommend that the U.S.
                                            Ambassador to Afghanistan:
                                             Urge the United Nations to hire a Capacity                 Closed–Not     Elections      Ensure appropriate    Build and sustain
                                              Development Advisor, or appoint an executive agent         Implementeda                  personnel             Afghan
                                              to coordinate an overall strategy for building and                                                             government




SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                           Page 12
 Report          Report Title                 Recommendation Text                                           Status        Sector(s)      Recommended           Intended
 Number and                                                                                                                              Action                Outcome
 Issue Date
                                                 sustaining electoral capacity. The advisor or executive                                                       capacity
                                                 agent should, in coordination with the Independent
                                                 Election Commission, United Nations, and other
                                                 stakeholders, monitor all capacity building efforts,
                                                 including evaluating performance and skills transfer,
                                                 identifying skill gaps and professional development
                                                 needs, and addressing sustainability and exit
                                                 strategies.

 Audit 09-07     Documenting Detention        To better ensure that the Counter-Narcotics Justice           Closed–       Counter-       Establish, improve,   Ensure
                 Procedures Will Help         Center is utilized as intended, we recommend that the         Implemented   narcotics;     or follow existing    construction of
 September 30,
                 Ensure Counter-Narcotics     U.S. Ambassador to Afghanistan work with appropriate                        Rule of law/   procedures,           facilities are
 2009
                 Justice Center Is Utilized   U.S. and Afghan officials to formalize and document                         anti-          policies, or other    completed and
                 As Intended                  procedures to ensure that the detention facilities at the                   corruption     guidance              used as intended
                                              Counter-Narcotics Justice Center are utilized on a priority
                                              basis with regard to mid- and high-value detainees. This
                                              could include a review as to whether the threshold for
                                              referring drug-related cases to the Central Narcotics
                                              Tribunal for adjudication is being effectively used and
                                              whether that threshold should be raised to help ensure
                                              that more detention cells at the Center are available for
                                              mid- and high-value detainees.

 Audit 10-01     Barriers to Greater          To address the challenges that female candidates and
                 Participation by Women in    voters face, SIGAR recommends that the U.S.
 October 28,
                 Afghan Elections             Ambassador to Afghanistan urge the Independent
 2009
                                              Election Commission, in conjunction with the United
                                              Nations, to implement necessary corrective action,
                                              including:
                                               Proactively recruit and train female Independent            Closed–       Elections;     Ensure appropriate    Improve the
                                                Election Commission staff and increase the number           Implemented   Gender         personnel             opportunities and
                                                of female staff to better integrate the fundamental                       issues                               lives of Afghan
                                                needs of women candidates and voters in the                                                                    women
                                                Independent Election Commission’s planning



SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                             Page 13
 Report          Report Title                 Recommendation Text                                           Status        Sector(s)      Recommended           Intended
 Number and                                                                                                                              Action                Outcome
 Issue Date
                                                 process.

                                               Communicate to all Independent Election                     Closed–       Elections;     Establish, improve,   Improve the
                                                Commission staff the importance and criticality of          Implemented   Gender         or follow existing    opportunities and
                                                following electoral law and procedures, including                         issues         procedures,           lives of Afghan
                                                increased supervision over Independent Election                                          policies, or other    women
                                                Commission field staff, to eliminate proxy voting (e.g.                                  guidance
                                                men voting for women).

                                               Reprimand and/or publicly report violators of               Closed–       Elections;     Establish, improve,   Improve the
                                                electoral infractions, particularly for proxy voting (men   Implemented   Gender         or follow existing    opportunities and
                                                voting for women) and multiple registrations (men                         issues         procedures,           lives of Afghan
                                                registering for women) to ensure fairness and                                            policies, or other    women
                                                credibility in the election process.                                                     guidance

                                               Ensure registration and polling centers are located in      Closed–       Elections;     Establish, improve,   Improve the
                                                secure, accessible locations, staffed by females, to        Implemented   Gender         or follow existing    opportunities and
                                                allow women to register and vote free from                                issues         procedures,           lives of Afghan
                                                intimidation.                                                                            policies, or other    women
                                                                                                                                         guidance

                                               Raise awareness of the right of women to participate        Closed–       Elections;     Establish, improve,   Improve the
                                                fully in the electoral process through broad civic          Implemented   Gender         or implement a        opportunities and
                                                education programs.                                                       issues         plan or strategy      lives of Afghan
                                                                                                                                                               women

 Audit 10-02     Afghanistan’s High Office    To help ensure the effective adoption and
                 of Oversight Needs           implementation of reform measures, SIGAR
 December 16,
                 Significantly Strengthened   recommends that the U.S. Ambassador to Afghanistan,
 2009
                 Authority, Independence,     in consultation with the U.S. Agency for International
                 and Donor Support to         Development, the High Office of Oversight, and
                 Become an Effective Anti-    international partners:
                 Corruption Institution
                                               Determine conditions on which to base future                Closed–       Rule of law/   Establish, enhance,   Ensure
                                                assistance, including the enactment of mutually             Implemented   anti-          or implement          accountability



SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                             Page 14
 Report          Report Title              Recommendation Text                                           Status        Sector(s)      Recommended          Intended
 Number and                                                                                                                           Action               Outcome
 Issue Date
                                                agreeable legislative reforms based on key principles                  corruption     performance          over direct
                                                to enhance the High Office of Oversight’s authority                                   indicators or        assistance funds
                                                and independence, and the establishment by the                                        targets
                                                High Office of Oversight of measureable performance
                                                benchmarks.
                                           To remedy an impairment of personal independence on
                                           the part of High Office of Oversight leadership, SIGAR
                                           recommends that the U.S. Ambassador to Afghanistan,
                                           through appropriate diplomatic channels including the
                                           Joint Coordination and Monitoring Board:
                                            Urge the High Office of Oversight Director General and      Closed–       Rule of law/   Ensure appropriate   Build and sustain
                                             Deputy Director General to either resign from their         Implemented   anti-          personnel            Afghan
                                             presidential advisory positions or, alternatively, resign                 corruption                          government
                                             from their High Office of Oversight positions.                                                                capacity
                                           To provide leadership to the U.S. government assistance
                                           effort for the High Office of Oversight, SIGAR
                                           recommends that the U.S. Ambassador to Afghanistan:
                                            Designate an agency or individual to oversee                Closed–       Rule of law/   Ensure appropriate   Build and sustain
                                             assistance to the High Office of Oversight, both in         Implemented   anti-          personnel            Afghan
                                             terms of institutional capacity building and legislative                  corruption                          government
                                             reform, in conjunction with international partners.                                                           capacity
                                           To support the High Office of Oversight in meeting
                                           performance benchmarks, SIGAR recommends that the
                                           U.S. Ambassador to Afghanistan:
                                            Ensure that the designated agency or individual             Closed–       Rule of law/   Ensure appropriate   Build and sustain
                                             oversee the appointment of high-level advisors, such        Implemented   anti-          personnel            Afghan
                                             as judges or anti-corruption specialists, to be                           corruption                          government
                                             embedded at the High Office of Oversight in order to                                                          capacity
                                             provide sustained counsel, mentoring, and strategic
                                             advice to High Office of Oversight leadership.
                                           In order to improve coordination and avoid duplication of



SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                         Page 15
 Report          Report Title                  Recommendation Text                                         Status        Sector(s)         Recommended           Intended
 Number and                                                                                                                                Action                Outcome
 Issue Date
                                               effort and assistance to the High Office of Oversight
                                               among U.S. and international donors, SIGAR
                                               recommends that the U.S. Ambassador to Afghanistan:
                                                Engage the international community to reinvigorate        Closed–       Rule of law/      Implement             Increase
                                                 international donor coordination efforts, perhaps         Implemented   anti-             agreements and        coordination and
                                                 under the auspices of the United Nations Assistance                     corruption        ensure                information
                                                 Mission in Afghanistan.                                                                   coordination          sharing

 Audit 10-03     Actions Needed to Protect     Six recommendations unclassified, but for official use      Closed–       Rule of law/      Establish, improve,   Increase
                 Afghanistan’s Judicial        only                                                        Implemented   anti-             or follow existing    coordination and
 December 18,
                 Officials                                                                                 (6)           corruption (6);   procedures,           information
 2009
                                                                                                                         Counter-          policies, or other    sharing (4);
                                                                                                                         narcotics (2)     guidance (3);         Improve security
                                                                                                                                           Ensure appropriate    of personnel or
                                                                                                                                           personnel (1);        infrastructure (2)
                                                                                                                                           Conduct or improve
                                                                                                                                           current
                                                                                                                                           assessments or
                                                                                                                                           reviews (1);
                                                                                                                                           Implement
                                                                                                                                           agreements and
                                                                                                                                           ensure
                                                                                                                                           coordination (1)

 Audit 10-08     Afghanistan’s Control and     To strengthen the Control and Audit Office’s capability
                 Audit Office Requires         and capacity, SIGAR is making the following two
 April 9, 2010
                 Operational and Budgetary     recommendations:
                 Independence, Enhanced
                                                To help enable the Control and Audit Office to become     Closed–       Rule of law/      Establish, improve,   Build and sustain
                 Authority, and Focused
                                                 an effective supreme auditing institution, SIGAR          Implemented   anti-             or follow existing    Afghan
                 International Assistance to
                                                 recommends that the U.S. Ambassador to                                  corruption        procedures,           government
                 Effectively Prevent and
                                                 Afghanistan urge the Afghan government to enact                                           policies, or other    capacity
                 Detect Corruption
                                                 legislation providing the Control and Audit Office with                                   guidance
                                                 sufficient independence and authority to fulfill its
                                                 responsibilities in accordance with internationally



SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                               Page 16
 Report          Report Title               Recommendation Text                                          Status         Sector(s)      Recommended           Intended
 Number and                                                                                                                            Action                Outcome
 Issue Date
                                                recognized audit standards.

                                             To help build the sustainable internal capacity of the
                                                                                                         Closed–        Rule of law/   Establish, improve,   Build and sustain
                                              Control and Audit Office, SIGAR recommends that the
                                                                                                         Implemented    anti-          or implement a        Afghan
                                              U.S. Ambassador to Afghanistan oversee the
                                                                                                                        corruption     plan or strategy      government
                                              development and implementation of a capacity
                                                                                                                                                             capacity
                                              development plan for the Control and Audit Office, in
                                              cooperation with the Control and Audit Office and
                                              international stakeholders, as part of the U.S.
                                              government’s Anti-Corruption Strategy for
                                              Afghanistan. In consideration of the issues
                                              concerning Control and Audit Office independence
                                              and authority, such a plan should include the
                                              identification of funding sources and donor
                                              responsibilities for capacity development and
                                              training; utilization of existing training possibilities
                                              within the U.S. government; and the appointment of
                                              expert audit mentors and advisors.

 Audit 10-13     Greater Coordination       Prior to developing the next report to Congress, which is
                 Needed in Meeting          due by September 30, 2010, SIGAR recommends that
 July 30, 2010
                 Congressional Directives   the Secretary of State, in consultation with the U.S.
                 to Address and Report on
                                            Agency for International Development Administrator:
                 the Needs of Afghan
                 Women and Girls             Develop consistent reporting requirements for all U.S.     Closed–Not     Gender         Establish or          Increase
                                              Agency for International Development and State             Implementedc   issues         enhance reporting     coordination and
                                              programs and activities to provide data on female                                        or reporting          information
                                              beneficiaries and measurable impacts of activities                                       requirements          sharing
                                              intended to address the needs of Afghan women and
                                              girls.

                                             Develop a coordinated approach to reporting on the         Closed–Not     Gender         Establish or           Increase
                                              use of earmarked funds that provides consistent            Implementedc   issues         enhance reporting     coordination and
                                              information about each activity, identifies funding                                      or reporting          information




SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                           Page 17
 Report          Report Title                  Recommendation Text                                          Status         Sector(s)      Recommended           Intended
 Number and                                                                                                                               Action                Outcome
 Issue Date
                                                  sources, allocates earmarks at the start of each fiscal                                 requirements          sharing
                                                  year’s budgeting cycle, and provides the rationale for
                                                  reporting activities and for determining the earmark
                                                  attribution amounts.

                                                Align activities to ensure consistency with the goals      Closed–Not     Gender         Implement             Improve the
                                                 and benchmarks stated in the U.S.-supported                Implementedc   issues         agreements and        opportunities and
                                                 Afghanistan’s national strategies, particularly the                                      ensure                lives of Afghan
                                                 National Action Plan for the Women of Afghanistan.                                       coordination          women

                                                Target funds to specifically address the organizations     Closed–Not     Gender         Establish, improve,   Improve the
                                                 repeatedly specified in the legislation, including the     Implementedc   issues         or follow existing    opportunities and
                                                 Ministry of Women’s Affairs, the Afghanistan                                             procedures,           lives of Afghan
                                                 Independent Human Rights Commission, and Afghan                                          policies, or other    women
                                                 women-led non-governmental organizations and civil                                       guidance
                                                 society organizations to ensure appropriated funds
                                                 are used as directed by Congress and address the
                                                 needs of Afghan women and girls.

 Audit 10-15     U.S. Reconstruction Efforts   To improve and direct U.S. anti-corruption efforts in
                 in Afghanistan Would          Afghanistan and to help strengthen the capacity of
 August 5,
                 Benefit from a Finalized      Afghan government institutions to combat corruption
 2010
                 Comprehensive U.S. Anti-      and protect U.S. and other donor funds from waste,
                 Corruption Strategy           fraud, and abuse, SIGAR recommends that the U.S.
                                               Secretary of State:
                                                Approve and implement the draft comprehensive U.S.         Closed–        Rule of law/   Establish, improve,   Build and sustain
                                                 anti-corruption strategy for reconstruction efforts in     Implemented    anti-          or implement a        Afghan
                                                 Afghanistan.                                                              corruption     plan or strategy      government
                                                                                                                                                                capacity

                                                Review key Afghan oversight institutions, particularly     Closed–Not     Rule of law/   Conduct or improve    Build and sustain
                                                 the internal audit departments of Afghan line              Implementedb   anti-          current               Afghan
                                                 ministries, to determine whether the United States                        corruption     assessments or        government
                                                 should provide them more assistance to strengthen



SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                              Page 18
 Report          Report Title                 Recommendation Text                                           Status        Sector(s)    Recommended           Intended
 Number and                                                                                                                            Action                Outcome
 Issue Date
                                                their ability to combat corruption in Afghanistan and                                  reviews               capacity
                                                provide accountability over U.S. reconstruction funds
                                                channeled through the Afghan government.

 Audit 11-01     Weaknesses in Reporting      To help ensure that Nangarhar’s provincial directorates
                 and Coordination of          develop the capacity required to implement, absorb, and
 October 26,
                 Development Assistance       execute additional development funds and implement
 2010
                 and Lack of Provincial       development projects—as outlined in the government of
                 Capacity Pose Risks to       Afghanistan’s Sub-National Governance Policy—SIGAR
                 U.S. Strategy in Nangarhar   recommends that the U.S. Ambassador to Afghanistan,
                 Province                     in coordination with the Nangarhar Provincial
                                              Reconstruction Team and U.S. Forces-Afghanistan:
                                               Work with the Ministry of Finance and other ministries      Closed–       Afghan       Establish, improve,   Build and sustain
                                                to develop a cohesive, interagency strategy focused         Implemented   governance   or implement a        Afghan
                                                on developing Nangarhar province’s capacity in                                         plan or strategy      government
                                                budget formulation and execution, planning and                                                               capacity
                                                project development, management and oversight,
                                                and operations and maintenance.
                                              To ensure that the government of Afghanistan and U.S.
                                              personnel are aware of provincial-level U.S.
                                              development activities, priorities, and expenditures
                                              across Afghanistan, and to ensure that the Afghanistan
                                              government is able to develop an accurate picture of
                                              provincial-level expenditures for inclusion in the external
                                              budget, SIGAR recommends that the U.S. Ambassador
                                              to Afghanistan, in coordination with U.S. Forces-
                                              Afghanistan and the Afghan government:
                                               Develop a strategy and methodology to formally              Closed–       Afghan       Establish, improve,   Increase
                                                report provincial-level project and expenditure data—       Implemented   governance   or implement a        coordination and
                                                at the appropriate level of detail—to the government                                   plan or strategy      information
                                                of Afghanistan and provincially based Afghan and U.S.                                                        sharing
                                                officials; this may require provincial-level expenditure
                                                reporting from implementing partners.



SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                           Page 19
 Report          Report Title                 Recommendation Text                                         Status        Sector(s)        Recommended           Intended
 Number and                                                                                                                              Action                Outcome
 Issue Date


                                               Coordinate with U.S. Forces-Afghanistan, the United       Closed–       Afghan           Establish, improve,   Ensure
                                                Nations Assistance Mission in Afghanistan, and other      Implemented   governance       or implement a        accountability
                                                stakeholders to assist Nangarhar’s line directors and                                    plan or strategy      over direct
                                                technical working groups in developing meaningful,                                                             assistance funds
                                                comprehensive sectoral development plans that can
                                                lead to sustainable economic improvement.

                                               Advance and implement a development assistance            Closed–       Afghan           Establish, improve,   Ensure
                                                plan for Nangarhar in a manner that increasingly          Implemented   governance       or implement a        accountability
                                                transfers development management to the provincial                                       plan or strategy      over direct
                                                government institutions, including line ministers, and                                                         assistance funds
                                                the technical working groups/Provincial Development
                                                Committee process. This includes encouraging and/or
                                                requiring implementing partners to formally involve
                                                provincial officials in development projects and
                                                programs.

 Audit 11-02     U.S. Civilian Uplift in      To ensure that the interagency evaluation of the civilian
                 Afghanistan Is Progressing   uplift is comprehensive, SIGAR recommends that the
 October 26,
                 but Some Key Issues Merit    U.S. Ambassador to Afghanistan:
 2010
                 Further Examination as
                                               Include the following items as part of the interagency    Closed–       Cross-cutting:   Conduct or improve    Ensure proper
                 Implementation Continues
                                                review: training, required guidance for working in the    Implemented   U.S. Resource    current               planning and
                                                field, and standardized models for civilian-military                    and              assessments or        management of
                                                integration.                                                            Information      reviews               resources
                                                                                                                        Management
                                              To formally monitor civilians’ effectiveness in the field
                                              and identify shortfalls and necessary corrective actions,
                                              SIGAR recommends that the U.S. Ambassador to
                                              Afghanistan:
                                               Develop a mechanism for collecting, analyzing, and        Closed–       Cross-cutting:   Establish, enhance,   Ensure proper
                                                applying lessons learned and best practices, to           Implemented   U.S. Resource    or implement          planning and
                                                include the design and implementation of a series of                    and              performance           management of
                                                comprehensive field surveys.                                            Information      indicators or         resources



SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                             Page 20
 Report          Report Title                 Recommendation Text                                         Status         Sector(s)    Recommended           Intended
 Number and                                                                                                                           Action                Outcome
 Issue Date
                                                                                                                         Management   targets

 Audit 11-05     Actions Needed to Mitigate   To mitigate the negative effects of donor salary support
                 Inconsistencies in and       on long-term sustainability and capacity development,
 October 29,
                 Lack of Safeguards over      SIGAR recommends that the U.S. Ambassador
 2010
                 U.S. Salary Support to       coordinate with other international donors and the
                 Afghan Government            Afghan government through formal coordination
                 Employees and Technical      mechanisms to collectively:
                 Advisors
                                               Establish principles, including reporting requirements,   Closed–Not     Afghan       Establish or          Build and sustain
                                                to guide how and under what conditions donors may         Implementedb   governance   enhance reporting     Afghan
                                                provide salary support in a way that facilitates a                                    or reporting          government
                                                transition to Afghan responsibility.                                                  requirements          capacity

                                               Define key terms such as salary support, salary           Closed–Not     Afghan       Establish, improve,   Build and sustain
                                                supplement, technical advisor, and other related          Implementedb   governance   or follow existing    Afghan
                                                terms to facilitate information sharing and improve                                   procedures,           government
                                                transparency over donor salary support.                                               policies, or other    capacity
                                                                                                                                      guidance

                                               Develop and utilize a standardized salary scale that is   Closed–Not     Afghan       Establish, improve,   Build and sustain
                                                more closely aligned with Afghan government-              Implementedb   governance   or follow existing    Afghan
                                                approved scales for salaries and salary supplements.                                  procedures,           government
                                                                                                                                      policies, or other    capacity
                                                                                                                                      guidance
                                              To ensure U.S. salary support is strategically targeted
                                              toward prioritized needs and goals and is consistently
                                              applied across U.S. agencies, SIGAR recommends that
                                              the U.S. Ambassador:
                                               Designate a representative to serve as a focal point      Closed–        Afghan       Ensure appropriate    Ensure
                                                for requests for salary support and monitor salary        Implemented    governance   personnel             accountability
                                                support provided by U.S. agencies.                                                                          over direct
                                                                                                                                                            assistance funds




SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                          Page 21
 Report          Report Title              Recommendation Text                                          Status         Sector(s)    Recommended           Intended
 Number and                                                                                                                         Action                Outcome
 Issue Date
                                            Issue guidance that includes priorities, coordination      Closed–Not     Afghan       Establish, improve,   Ensure
                                             mechanisms, and standardized salary ranges.                Implementedb   governance   or follow existing    accountability
                                                                                                                                    procedures,           over direct
                                                                                                                                    policies, or other    assistance funds
                                                                                                                                    guidance

                                            Identify the full extent of existing and planned U.S.      Closed–Not     Afghan       Conduct or improve    Ensure
                                             salary support and determine whether that support is       Implementedb   governance   current               accountability
                                             in line with this guidance and U.S. strategic goals and                                assessments or        over direct
                                             objectives.                                                                            reviews               assistance funds
                                           To enhance safeguards and improve accountability over
                                           U.S. funding for salary support, SIGAR recommends that
                                           the U.S. Ambassador:
                                            Require verification that positions funded by U.S.         Closed–Not     Afghan       Establish, improve,   Ensure
                                             agencies are on the tashkil or are planned to be           Implementedb   governance   or follow existing    accountability
                                             transferred onto the tashkil.                                                          procedures,           over direct
                                                                                                                                    policies, or other    assistance funds
                                                                                                                                    guidance

                                            Conduct a risk assessment of the Afghan government         Closed–Not     Afghan       Conduct or improve    Ensure
                                             payroll and human resources systems and                    Implementedb   governance   current               accountability
                                             procedures used to disburse salary support in order                                    assessments or        over direct
                                             to determine weaknesses in the systems and institute                                   reviews               assistance funds
                                             conditions or requirements to mitigate those risks.

                                            Work with the Ministry of Finance, in conjunction with     Closed–Not     Afghan       Establish, improve,   Ensure
                                             other donors, to develop a mechanism to detect when        Implementedb   governance   or follow existing    accountability
                                             employees receive multiple salary payments.                                            procedures,           over direct
                                                                                                                                    policies, or other    assistance funds
                                                                                                                                    guidance

                                            Require that recipients of U.S. salary support be paid     Closed–Not     Afghan       Establish, improve,   Ensure
                                             electronically, if appropriate financial controls exist.   Implementedb   governance   or follow existing    accountability




SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                        Page 22
 Report          Report Title              Recommendation Text                                          Status        Sector(s)    Recommended           Intended
 Number and                                                                                                                        Action                Outcome
 Issue Date
                                                                                                                                   procedures,           over direct
                                                                                                                                   policies, or other    assistance funds
                                                                                                                                   guidance

 Audit 11-08     Afghanistan's National    To ensure that about $2.8 million of National Solidarity
                 Solidarity Program Has    Program funds retained by a hawalla dealer in Paktika
 March 22,
                 Reached Thousands of      province, and $84,648 in unearned transfer fees paid to
 2011
                 Afghan Communities, but   the same hawalla dealer, are used for their intended
                 Faces Challenges that     purposes, we recommend that the U.S. Ambassador to
                 Could Limit Outcomes      Afghanistan:
                                            Urge the Afghan government to continue its efforts to      Closed–       Afghan       Recover or ensure     Ensure
                                             recover those funds from the hawalla dealer and            Implemented   governance   appropriate use of    accountability
                                             either reprogram the recovered funds for National                                     funds                 over direct
                                             Solidarity Program activities or return the funds to the                                                    assistance funds
                                             Afghanistan Reconstruction Trust Fund.
                                           To improve internal controls associated with monitoring
                                           and accounting for donor funds and help mitigate the
                                           potential effects of future challenges to the National
                                           Solidarity Program identified in this report, SIGAR
                                           recommends that the U.S. Ambassador to Afghanistan
                                           encourage the National Solidarity Program, the Ministry
                                           of Rural Rehabilitation and Development, and the World
                                           Bank to:
                                            Strengthen the existing monitoring system within the       Closed–       Afghan       Establish or          Strengthen
                                             program and improve the quality of the internal            Implemented   governance   enhance reporting     internal controls
                                             monitoring reports to measure progress toward                                         or reporting
                                             established performance indicators to show                                            requirements
                                             improvements in local governance and linkages over
                                             time between local communities and the Afghan
                                             government as a result of National Solidarity Program
                                             activities.

                                            Seek final determination by the Afghan government          Closed–       Afghan       Establish, improve,   Strengthen



SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                         Page 23
 Report           Report Title               Recommendation Text                                        Status        Sector(s)    Recommended           Intended
 Number and                                                                                                                        Action                Outcome
 Issue Date
                                                as to whether community development councils            Implemented   governance   or follow existing    internal controls
                                                established by the National Solidarity Program should                              procedures,
                                                become village councils.                                                           policies, or other
                                                                                                                                   guidance

                                              Continue to improve the block grant transfer system      Closed–       Afghan       Establish, improve,   Strengthen
                                               to ensure that community development councils            Implemented   governance   or follow existing    internal controls
                                               continue to receive and have access to funds in a                                   procedures,
                                               timely and consistent manner - particularly during the                              policies, or other
                                               seasons in which they implement approved projects.                                  guidance

                                              Strengthen and streamline the system for paying          Closed–       Afghan       Establish, improve,   Strengthen
                                               facilitating partners in accordance with National        Implemented   governance   or follow existing    internal controls
                                               Solidarity Program contractual obligations.                                         procedures,
                                                                                                                                   policies, or other
                                                                                                                                   guidance

                                              Closely monitor and evaluate National Solidarity         Closed–       Afghan       Conduct or improve    Strengthen
                                               Program activities in insecure areas to determine        Implemented   governance   current               internal controls
                                               whether the greater flexibility in applying internal                                assessments or
                                               controls results in losses of National Solidarity                                   reviews
                                               Program funds or the failure to achieve program
                                               objectives.

 Audit 11-10      Despite Improvements in    To improve the United Nations Development
                  MoI’s Personnel Systems,   Programme’s monitoring and oversight of U.S. and other
 April 25, 2011
                  Additional Actions Are     international donations contributed into the Law and
                  Needed to Completely       Order Trust Fund for Afghanistan, as well as address the
                  Verify ANP Payroll Costs   United Nations Development Programme management
                  and Workforce Strength     fee we recommend that the U.S. Ambassador to
                                             Afghanistan:
                                              Require that the U.S. representative on the Law and      Closed–       Security     Recover or ensure     Ensure
                                               Order Trust Fund for Afghanistan Steering Committee      Implemented                appropriate use of    accountability
                                               follow up with United Nations Development                                                                 over direct



SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                       Page 24
 Report          Report Title               Recommendation Text                                          Status        Sector(s)      Recommended          Intended
 Number and                                                                                                                           Action               Outcome
 Issue Date
                                                Programme to ensure that an opinion is rendered on                                    funds                assistance funds
                                                the available international donations in the Law and
                                                Order Trust Fund for Afghanistan at the end of each
                                                audit period, and request that the U.S. Mission at the
                                                United Nations help to negotiate and ensure that the
                                                United Nations Development Programme
                                                management fee of three percent for the Law and
                                                Order Trust Fund for Afghanistan Phase VI is
                                                approved.

 Audit 11-12     U.S. Agencies Have         To improve accountability over U.S. assistance to the
                 Provided Training and      Major Crimes Task Force, we recommend that the
 July 19, 2011
                 Support to Afghanistan’s   Assistant Secretary of State for International Narcotics
                 Major Crimes Task Force,   and Law Enforcement Affairs:
                 but Reporting and
                                             Provide an accounting, as required by the                  Closed–       Rule of law/   Recover or ensure    Ensure
                 Reimbursement Issues
                                              Memorandum of Agreement between the Office of the          Implemented   anti-          appropriate use of   accountability
                 Need to be Addressed
                                              Secretary of Defense and the Bureau of International                     corruption     funds                over direct
                                              Narcotics and Law Enforcement Affairs, of the $6.2                                                           assistance funds
                                              million already transferred to the Bureau of
                                              International Narcotics and Law Enforcement Affairs
                                              to cover operations and maintenance costs for the
                                              Major Crimes Task Force Camp Falcon facility.
                                            To ensure that the U.S. government is reimbursed, as
                                            appropriate, for some of the costs of assistance to the
                                            Major Crimes Task Force, we recommend that the
                                            Assistant Secretary of State for International Narcotics
                                            and Law Enforcement Affairs, in consultation with the
                                            Commanding General of Combined Security Transition
                                            Command-Afghanistan:
                                             Develop and implement a system to bill, collect, and       Closed–       Rule of law/   Recover or ensure    Ensure
                                              appropriately use such funds received from non-U.S.        Implemented   anti-          appropriate use of   accountability
                                              international personnel receiving services at the                        corruption     funds                over direct
                                              Major Crimes Task Force Camp Falcon facility.                                                                assistance funds



SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                         Page 25
 Report          Report Title                 Recommendation Text                                        Status         Sector(s)     Recommended           Intended
 Number and                                                                                                                           Action                Outcome
 Issue Date

 Audit 11-13     Limited Interagency          To help leverage available resources and expertise and
                 Coordination and             avoid duplication of agency efforts on financial sector
 July 20, 2011
                 Insufficient Controls over   issues, the U.S. Ambassador to Afghanistan should
                 U.S. Funds in Afghanistan    instruct the members of the Financial Sector Working
                 Hamper U.S. Efforts to       Group to:
                 Develop the Afghan
                                               Develop an interagency strategy to coordinate efforts    Closed–        Revenue       Establish, improve,   Increase
                 Financial Sector and
                                                to work with Afghan banks to increase their Electronic   Implemented    generation/   or implement a        coordination and
                 Safeguard U.S. Cash
                                                Funds Transfer, internal processes, and transaction                     financial     plan or strategy      information
                                                accountability capabilities.                                            sector                              sharing
                                              To strengthen oversight over the flow of U.S. funds
                                              through the Afghan economy and to support overall U.S.
                                              reconstruction goals in Afghanistan, the Secretary of
                                              State and the Secretary of Defense should instruct their
                                              contracting and financial authorities to:
                                               Institute steps to record the serial numbers of cash     Closed–Not     Revenue       Establish, improve,   Improve award,
                                                disbursed to contractors and provide these data to       Implementede   generation/   or follow existing    oversight, and
                                                U.S. law enforcement officials (including the Afghan                    financial     procedures,           management of
                                                Threat Finance Cell), as well as the Financial                          sector        policies, or other    contracts, grants,
                                                Transactions and Reports Analysis Center of                                           guidance              or cooperative
                                                Afghanistan or another appropriate Afghan source.                                                           agreements

                                               Develop a plan to ensure that Afghan banks that          Closed–        Revenue       Establish, improve,   Improve award,
                                                provide payments to recipients of U.S. Electronic        Implemented    generation/   or implement a        oversight, and
                                                Funds Transfer payments record the serial numbers                       financial     plan or strategy      management of
                                                of cash paid to these recipients by using bulk                          sector                              contracts, grants,
                                                currency counters and that these data are reported to                                                       or cooperative
                                                U.S. law enforcement officials (including the Afghan                                                        agreements
                                                Threat Finance Cell), as well as the Financial
                                                Transactions and Reports Analysis Center of
                                                Afghanistan or another appropriate Afghan source.

                                               Insert a standard clause into U.S. contracts, grants,    Closed–        Revenue       Modify contract       Improve award,




SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                          Page 26
 Report          Report Title                 Recommendation Text                                           Status        Sector(s)     Recommended          Intended
 Number and                                                                                                                             Action               Outcome
 Issue Date
                                                 and cooperative agreements with entities operating in      Implemented   generation/   language or other    oversight, and
                                                 Afghanistan requiring that these contractors pay their                   financial     procurement action   management of
                                                 subcontractors through either an Electronic Funds                        sector                             contracts, grants,
                                                 Transfer-capable bank or a licensed hawalla, where                                                          or cooperative
                                                 possible. Alternatively, if a determination is made that                                                    agreements
                                                 such a clause would not be feasible under existing
                                                 regulations, submit a formal proposal to Congress
                                                 with legislative language allowing the inclusion of
                                                 such a clause.

 Audit 11-14     The World Bank and the       To strengthen and enhance oversight of Afghanistan
                 Afghan Government Have       Reconstruction Trust Fund funds, we recommend that
 July 22, 2011
                 Established Mechanisms       the U.S. Ambassador to Afghanistan, in coordination with
                 to Monitor and Account for   other Afghanistan Reconstruction Trust Fund donors,
                 Funds Contributed to the     urge the World Bank to:
                 Afghanistan
                                               Include explicit language in the new Recurrent Cost         Closed–       Afghan        Modify contract      Ensure
                 Reconstruction Trust
                                                Window monitoring agent’s contract and terms of             Implemented   governance    language or other    accountability
                 Fund, but Some
                                                reference to require the agent to make necessary                                        procurement action   over direct
                 Limitations and
                                                arrangements to conduct site visits in both Kabul and                                                        assistance funds
                 Challenges Should Be
                                                the provinces, on a sample basis, to verify the
                 Addressed
                                                eligibility of the Afghan government’s operating
                                                expenditures.

                                               Enhance reporting to all donors on development              Closed–       Afghan        Establish or         Ensure
                                                project results and outcomes by regularly including         Implemented   governance    enhance reporting    accountability
                                                this information in its quarterly reports to donors or by                               or reporting         over direct
                                                systematically distributing supervision mission reports                                 requirements         assistance funds
                                                to all Afghanistan Reconstruction Trust Fund donors.
                                              To ensure that Afghan ministries further develop and
                                              sustain the staff expertise needed to manage and
                                              account for development funding, including Afghanistan
                                              Reconstruction Trust Fund funds, we recommend that
                                              the U.S. Ambassador to Afghanistan, in coordination




SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                           Page 27
 Report          Report Title                   Recommendation Text                                         Status        Sector(s)        Recommended           Intended
 Number and                                                                                                                                Action                Outcome
 Issue Date
                                                with the World Bank and other donors:
                                                 Assist the Afghan government with capacity building       Closed–       Afghan           Establish, improve,   Build and sustain
                                                  efforts, such as developing plans to completely           Implemented   governance       or implement a        Afghan
                                                  transition to Afghan civil service staff and completing                                  plan or strategy      government
                                                  pay and grade reform, which would enhance the                                                                  capacity
                                                  Afghan government’s ability to attract and retain
                                                  qualified staff.

 Audit 11-17     The U.S. Civilian Uplift in    To improve the management and planning of the U.S.
                 Afghanistan Has Cost           civilian uplift in Afghanistan, we are making two
 September 8,
                 Nearly $2 Billion, and         recommendations to State’s Assistant Secretary for
 2011
                 State Should Continue to       South and Central Asian Affairs to:
                 Strengthen Its
                                                 Implement formal agreements, such as memoranda            Closed–       Cross-cutting:   Implement             Increase
                 Management and
                                                  of understanding, with all agencies that receive State    Implemented   U.S. Resource    agreements and        coordination and
                 Oversight of the Funds
                                                  transfers to fund their uplift personnel to ensure                      and              ensure                information
                 Transferred to Other
                                                  funds are used for their intended purposes. These                       Information      coordination          sharing
                 Agencies
                                                  agreements should clearly detail the approved uses                      Management
                                                  of funds and provide for the monitoring and oversight
                                                  of the expenditure of funds.

                                                 Ensure that the Department of Transportation returns      Closed–       Cross-cutting:   Recover or ensure     Ensure proper
                                                  the $3.5 million in funds that were unused to State or    Implemented   U.S. Resource    appropriate use of    planning and
                                                  the U.S. Treasury.                                                      and              funds                 management of
                                                                                                                          Information                            resources
                                                                                                                          Management

 Audit 12-01     Actions Needed to Better       To improve the integration and coordination of U.S.
                 Assess and Coordinate          capacity-building efforts, we recommend the U.S.
 October 20,
                 Capacity-Building Efforts at   Ambassador to Afghanistan, in coordination with the
 2011
                 the Ministry of Agriculture,   Ministry of Agriculture, Irrigation, and Livestock:
                 Irrigation, and Livestock
                                                 Develop a Ministry of Agriculture, Irrigation, and        Closed–       Agriculture      Establish, improve,   Build and sustain
                                                  Livestock capacity-building implementation plan to        Implemented                    or implement a        Afghan
                                                  provide guidance for programs with the Ministry of                                       plan or strategy      government



SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                               Page 28
 Report          Report Title              Recommendation Text                                            Status        Sector(s)     Recommended           Intended
 Number and                                                                                                                           Action                Outcome
 Issue Date
                                                Agriculture, Irrigation, and Livestock and the                                                              capacity
                                                Directorate of Agriculture, Irrigation, and Livestock
                                                capacity-building components that defines and
                                                articulates an end state for Ministry of Agriculture,
                                                Irrigation, and Livestock capacity building, identifies
                                                core competencies and their standards, and
                                                establishes priorities and critical milestones. This
                                                plan should include regular progress reporting.
                                           To more closely integrate Agribusiness Development
                                           Team capacity-building activities with those of civilian
                                           agencies, we recommend the U.S. Ambassador to
                                           Afghanistan:
                                            Improve coordination and integration mechanisms              Closed–       Agriculture   Implement             Build and sustain
                                             with Agribusiness Development Teams by                       Implemented                 agreements and        Afghan
                                             disseminating information and guidance to                                                ensure                government
                                             Agribusiness Development Teams through a                                                 coordination          capacity
                                             designated military liaison to implement U.S. Ministry
                                             of Agriculture, Irrigation, and Livestock capacity-
                                             building activities in a coordinated civilian-military
                                             manner. The dissemination of this information and
                                             guidance should be done formally and systematically.
                                           To more accurately and consistently measure civilian-
                                           military progress made in building Ministry of Agriculture,
                                           Irrigation, and Livestock’s capacity in Kabul and in the
                                           provinces, we recommend that the U.S. Ambassador to
                                           Afghanistan, in conjunction with the U.S. Agency for
                                           International Development Mission Director, U.S.
                                           Department of Agriculture, the Office of Interagency
                                           Provincial Affairs, and the International Security
                                           Assistance Force Joint Command:
                                            Establish common indicators and standard definitions         Closed–       Agriculture   Establish, enhance,   Build and sustain
                                             for assessing capacity-building efforts throughout the       Implemented                 or implement          Afghan




SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                          Page 29
 Report          Report Title                  Recommendation Text                                        Status         Sector(s)        Recommended           Intended
 Number and                                                                                                                               Action                Outcome
 Issue Date
                                                 Ministry of Agriculture, Irrigation, and Livestock and                                   performance           government
                                                 direct U.S. agencies to collect and report on those                                      indicators or         capacity
                                                 indicators to the U.S. Embassy.                                                          targets

                                                Establish performance baselines and targets for all      Closed–Not     Agriculture      Establish, enhance,   Build and sustain
                                                 performance indicators in the Agriculture Campaign       Implementedd                    or implement          Afghan
                                                 Assessment and the Mission Performance                                                   performance           government
                                                 Management Plan.                                                                         indicators or         capacity
                                                                                                                                          targets

                                                Include capacity-building activities from U.S.           Closed–        Agriculture      Conduct or improve    Build and sustain
                                                 Department of Agriculture agricultural advisors,         Implemented                     current               Afghan
                                                 Agribusiness Development Teams, and relevant U.S.                                        assessments or        government
                                                 Agency for International Development programs in the                                     reviews               capacity
                                                 Agriculture Campaign Assessment.

 Audit 12-06     Afghan First Initiative Has   To help broaden the base of participating Afghan
                 Placed Work with Afghan       companies, and ensure that only qualified companies
 January 31,
                 Companies, but Is Affected    receive Afghan First Initiative awards, SIGAR
 2012
                 by Inconsistent Contract      recommends that the Commander U.S. Forces-
                 Solicitation and Vetting,     Afghanistan and the U.S. Ambassador to Afghanistan, in
                 and Employment Data Is        coordination with U.S. Central Command Joint Theater
                 Limited                       Support Contracting Command, U.S. Army Corps of
                                               Engineers, and the U.S. Agency for International
                                               Development Mission Director:
                                                Promote the use of a designated website, such as         Closed–Not     Cross-cutting:   Modify contract       Improve award,
                                                 AfghanFirst.org, as an information portal for linking    Implementeda   Contract         language or other     oversight, and
                                                 sources of U.S. procurement information in one                          Award and        procurement action    management of
                                                 location.                                                               Management                             contracts, grants,
                                                                                                                                                                or cooperative
                                                                                                                                                                agreements

                                                Develop guidelines to encourage U.S. contracting         Closed–        Cross-cutting:   Establish, improve,   Improve award,
                                                 authorities to adopt a more systematic approach to       Implemented    Contract         or follow existing    oversight, and



SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                              Page 30
 Report          Report Title                 Recommendation Text                                          Status         Sector(s)        Recommended           Intended
 Number and                                                                                                                                Action                Outcome
 Issue Date
                                                 considering all available and relevant vetting sources                   Award and        procedures,           management of
                                                 to assess Afghan ownership, sufficiency of resources,                    Management       policies, or other    contracts, grants,
                                                 and past performance.                                                                     guidance              or cooperative
                                                                                                                                                                 agreements

                                               Immediately require U.S. contracting authorities to        Closed–        Cross-cutting:   Modify contract       Improve award,
                                                verify whether current Afghan First Initiative award       Implemented    Contract         language or other     oversight, and
                                                recipients are Afghan-owned and have current                              Award and        procurement action    management of
                                                licenses to operate in Afghanistan.                                       Management                             contracts, grants,
                                                                                                                                                                 or cooperative
                                                                                                                                                                 agreements
                                              To help assess whether Afghan First Initiative awards
                                              are generating Afghan employment opportunities, SIGAR
                                              recommends that the Commander U.S. Forces-
                                              Afghanistan and the U.S. Ambassador to Afghanistan, in
                                              coordination with U.S. Central Command Joint Theater
                                              Support Contracting Command, U.S. Army Corps of
                                              Engineers, and the U.S. Agency for International
                                              Development Mission Director:
                                               Develop guidelines that define employment                  Closed–Not     Cross-cutting:   Establish, improve,   Improve award,
                                                generation; delineate the employment data needed,          Implementeda   Contract         or follow existing    oversight, and
                                                including collection and verification standards; and                      Award and        procedures,           management of
                                                develop an assessment process to measure Afghan                           Management       policies, or other    contracts, grants,
                                                employment levels resulting from Afghan First                                              guidance              or cooperative
                                                Initiative procurement activities.                                                                               agreements

 Audit 12-12     Fiscal Year 2011             To improve Congress’s capacity for effective oversight
                 Afghanistan Infrastructure   and enhance joint decision making for large-scale,
 July 30, 2012
                 Fund Projects Are behind     interdependent infrastructure projects that effect sector-
                 Schedule and Lack            wide goals, SIGAR recommends that the U.S.
                 Adequate Sustainment         Ambassador to Afghanistan and the U.S. Agency for
                 Plans                        International Development Mission Director, in
                                              coordination with the Commander U.S. Forces-




SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                               Page 31
 Report          Report Title              Recommendation Text                                        Status        Sector(s)        Recommended          Intended
 Number and                                                                                                                          Action               Outcome
 Issue Date
                                           Afghanistan:
                                            Define and identify all infrastructure projects that     Closed–       Infrastructure   Establish or         Increase
                                             compose the Afghanistan Infrastructure Program,          Implemented                    enhance reporting    coordination and
                                             including projects funded by the Afghanistan                                            or reporting         information
                                             Infrastructure Fund and the Economic Support Fund                                       requirements         sharing
                                             and include this information in required congressional
                                             reports as part of the Afghanistan Infrastructure
                                             Program. This notification should illustrate the
                                             interrelationship of infrastructure projects.
                                           To enhance coordination and oversight between the
                                           U.S. Department of Defense (U.S. Forces-Afghanistan
                                           and U.S. Army Corps of Engineers), State, and the U.S.
                                           Agency for International Development, SIGAR
                                           recommends that the Commander U.S. Forces-
                                           Afghanistan, the U.S. Ambassador to Afghanistan, and
                                           the U.S. Agency for International Development Mission
                                           Director:
                                            Define the roles and responsibilities for lead and       Closed–       Infrastructure   Implement            Increase
                                             secondary agencies for the implementation and            Implemented                    agreements and       coordination and
                                             oversight of Afghanistan Infrastructure Program                                         ensure               information
                                             projects.                                                                               coordination         sharing

                                            Develop a shared or web-based database, or include       Closed–       Infrastructure   Establish or         Increase
                                             Afghanistan Infrastructure Program projects into an      Implemented                    improve a            coordination and
                                             existing shared or web-based database, to monitor                                       database or          information
                                             project implementation and track progress. (Similar                                     information system   sharing
                                             consideration should be given to all
                                             development/infrastructure projects, as
                                             recommended previously by SIGAR and the
                                             Government Accountability Office.)
                                           To help ensure the successful and timely development
                                           of Afghanistan’s power sector, which relies on




SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                        Page 32
 Report          Report Title              Recommendation Text                                       Status        Sector(s)         Recommended           Intended
 Number and                                                                                                                          Action                Outcome
 Issue Date
                                           interdependent projects implemented by different U.S.
                                           government agencies and international donors, SIGAR
                                           recommends that the Commander U.S. Forces-
                                           Afghanistan, the U.S. Ambassador to Afghanistan, and
                                           the U.S. Agency for International Development Mission
                                           Director—in close coordination with key stakeholders
                                           including the Afghan government and the Asian
                                           Development Bank:
                                            Develop a project execution schedule of U.S.-funded     Closed–       Infrastructure;   Establish, improve,   Ensure
                                             interrelated infrastructure projects to determine and   Implemented   Energy            or implement a        development of
                                             communicate the “critical path” to stakeholders and                                     plan or strategy      Afghanistan's
                                             implementers, and incorporate the schedule into the                                                           power sector
                                             master plan for Afghanistan’s energy sector being
                                             developed by the Asian Development Bank.
                                           To help ensure the successful and timely development
                                           of Afghanistan’s power sector, which relies on
                                           interdependent projects implemented by different U.S.
                                           government agencies and international donors, and to
                                           ensure that $101 million of fiscal year 2011
                                           Afghanistan Infrastructure Fund funds do not expire,
                                           SIGAR recommends that the Secretary of Defense and
                                           the Secretary of State:
                                            Expedite the transfer of $101 million of fiscal year    Closed–       Infrastructure;   Recover or ensure     Ensure
                                             2011 Afghanistan Infrastructure Fund funds from the     Implemented   Energy            appropriate use of    development of
                                             U.S. Department of Defense to State—and ultimately                                      funds                 Afghanistan's
                                             to the U.S. Agency for International Development —for                                                         power sector
                                             the implementation of the Northeast Power System
                                             project from Dast-i-Barchi to Ghazni.


                                           To help ensure Afghanistan Infrastructure Program
                                           projects achieve counterinsurgency goals, SIGAR
                                           recommends that the Commander U.S. Forces-




SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                         Page 33
 Report          Report Title              Recommendation Text                                         Status        Sector(s)        Recommended           Intended
 Number and                                                                                                                           Action                Outcome
 Issue Date
                                           Afghanistan, the U.S. Ambassador to Afghanistan, and
                                           the U.S. Agency for International Development Mission
                                           Director:
                                            Clearly indicate the amount of time that infrastructure   Closed–       Infrastructure   Establish or          Ensure projects
                                             projects will take to achieve counterinsurgency           Implemented                    enhance reporting     achieve counter-
                                             benefits identified in congressional notifications                                       or reporting          insurgency goals
                                             required by Afghanistan Infrastructure Program                                           requirements
                                             authorizing legislation.

                                            Revise Afghanistan Infrastructure Program guidance        Closed–       Infrastructure   Establish, improve,   Ensure projects
                                             and project selection criteria to ensure that             Implemented                    or follow existing    achieve counter-
                                             Afghanistan Infrastructure Program projects have the                                     procedures,           insurgency goals
                                             support of the affected population.                                                      policies, or other
                                                                                                                                      guidance
                                           To help ensure Afghanistan Infrastructure Program
                                           projects are sustained and viable upon completion,
                                           SIGAR recommends that the Commander U.S. Forces-
                                           Afghanistan, the U.S. Ambassador to Afghanistan, and
                                           the U.S. Agency for International Development Mission
                                           Director:
                                            Develop a comprehensive sustainment plan for each         Closed–       Infrastructure   Establish, improve,   Ensure
                                             Afghanistan Infrastructure Program project that, at a     Implemented                    or implement a        sustainability of
                                             minimum, includes (a) a realistic estimate of costs                                      plan or strategy      reconstruction
                                             necessary to sustain the project, the planned source                                                           projects
                                             of such funding, and an assessment of the reliability
                                             of the planned source; (b) evidence that estimated
                                             sustainment costs have been provided to the Afghan
                                             government and that the Afghan government has
                                             committed to sustain the project; and (c) a joint
                                             assessment of the capacity of the Afghan government
                                             entity responsible for sustaining the project. The
                                             sustainment plans should be included in required




SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                           Page 34
 Report          Report Title                Recommendation Text                                        Status         Sector(s)        Recommended          Intended
 Number and                                                                                                                             Action               Outcome
 Issue Date
                                                congressional notifications.
                                             To help ensure the timely completion of congressional
                                             notifications and reports for Afghanistan Infrastructure
                                             Program projects, as well as the timely receipt of
                                             appropriated funds, SIGAR recommends that the
                                             Secretary of Defense and the Secretary of State:
                                              Clarify and formalize the requirements and format for    Closed–Not     Infrastructure   Establish or         Improve award,
                                               Afghanistan Infrastructure Program notification and      Implementedd                    enhance reporting    oversight, and
                                               reporting packages and the approval process,                                             or reporting         management of
                                               including expected timeframes, for providing                                             requirements         contracts, grants,
                                               notifications and reports to Congress.                                                                        or cooperative
                                                                                                                                                             agreements

 Audit 12-13     Selected Public Diplomacy   To provide better oversight of funds provided to award
                 Awards Mostly Achieved      recipients for public diplomacy programs in Afghanistan
 July 30, 2012
                 Objectives, but Embassy     and to provide for greater assurance of achieving award
                 Can Take Steps to           results, we recommend that the U.S. Ambassador to
                 Enhance Grant               Afghanistan:
                 Management and
                                              Take steps to ensure that Public Affairs Section         Closed–        Afghan           Modify contract      Improve award,
                 Oversight
                                               documents pre-award assessments and selection            Implemented    governance       language or other    oversight, and
                                               procedures for public diplomacy grants in accordance                                     procurement action   management of
                                               with State’s Grants Policy Directives.                                                                        contracts, grants,
                                                                                                                                                             or cooperative
                                                                                                                                                             agreements

                                              Take steps to ensure timely close-out of completed       Closed–        Afghan           Modify contract      Improve award,
                                               public diplomacy awards.                                 Implemented    governance       language or other    oversight, and
                                                                                                                                        procurement action   management of
                                                                                                                                                             contracts, grants,
                                                                                                                                                             or cooperative
                                                                                                                                                             agreements

                                              Recover and de-obligate $253,432 in cash advances        Closed–        Afghan           Recover or ensure    Improve award,



SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                           Page 35
 Report          Report Title                  Recommendation Text                                         Status        Sector(s)     Recommended           Intended
 Number and                                                                                                                            Action                Outcome
 Issue Date
                                                  made under a public diplomacy grant that was             Implemented   governance    appropriate use of    oversight, and
                                                  subsequently terminated.                                                             funds                 management of
                                                                                                                                                             contracts, grants,
                                                                                                                                                             or cooperative
                                                                                                                                                             agreements

                                                Re-solicit the contract for financial audits of public    Closed–       Afghan        Modify contract       Improve award,
                                                 diplomacy awards and, if necessary, coordinate with       Implemented   governance    language or other     oversight, and
                                                 other organizations that have awarded audit                                           procurement action    management of
                                                 contracts in Afghanistan.                                                                                   contracts, grants,
                                                                                                                                                             or cooperative
                                                                                                                                                             agreements

                                                Review the progress of two awards (university media       Closed–       Afghan        Conduct or improve    Improve award,
                                                 centers and university internet access) facing            Implemented   governance    current               oversight, and
                                                 difficulties in achieving intended results to determine                               assessments or        management of
                                                 whether to continue, modify, or terminate the awards.                                 reviews               contracts, grants,
                                                                                                                                                             or cooperative
                                                                                                                                                             agreements

                                                Determine sustainability requirements and develop         Closed–       Afghan        Establish, improve,   Improve award,
                                                 sustainability plans for 14 grants awarded in fiscal      Implemented   governance    or implement a        oversight, and
                                                 years 2010 and 2011 totaling $32 million and                                          plan or strategy      management of
                                                 requiring resources for staffing, operations, or                                                            contracts, grants,
                                                 maintenance after the award period ends.                                                                    or cooperative
                                                                                                                                                             agreements

 Audit 13-08     Taxes: Afghan Government      To help ensure that contractors working with U.S.
                 Has Levied Nearly a Billion   government agencies receive fair tax treatment, we
 May 14, 2013
                 Dollars in Business Taxes     recommend that the Secretary of State:
                 on Contractors Supporting
                                                Develop a consistent, unified position on what the        Closed–       Revenue       Establish, improve,   Improve award,
                 U.S. Government Efforts in
                                                 U.S. government deems appropriate taxation of             Implemented   generation/   or implement a        oversight, and
                 Afghanistan
                                                 contractors supporting U.S. government efforts in                       financial     plan or strategy      management of
                                                 Afghanistan; incorporate clear and complete                             sector                              contracts, grants,



SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                           Page 36
 Report          Report Title              Recommendation Text                                            Status        Sector(s)     Recommended           Intended
 Number and                                                                                                                           Action                Outcome
 Issue Date
                                                language concerning this position into future bilateral                                                     or cooperative
                                                agreements with the Afghan government;                                                                      agreements
                                                communicate this position to all contractors; and
                                                ensure that any taxes levied by the Afghan
                                                government are accurately reported to Congress.
                                           To ensure that taxes were not reimbursed
                                           inappropriately the Department of State Office of
                                           Procurement Executive and the U.S. Agency for
                                           International Development Office of Acquisition and
                                           Assistance should:
                                            Determine if taxes reimbursed by the Bureau of               Closed–       Revenue       Recover or ensure     Improve award,
                                             International Narcotics and Law Enforcement Affairs          Implemented   generation/   appropriate use of    oversight, and
                                             and the U.S. Agency for International Development                          financial     funds                 management of
                                             were legitimate and recover any inappropriately                            sector                              contracts, grants,
                                             reimbursed taxes.                                                                                              or cooperative
                                                                                                                                                            agreements
                                           To help ensure that contractors gain tax-exempt status
                                           and prevent inappropriate reimbursement of taxes, we
                                           recommend that the Department of State Office of
                                           Procurement Executive; the U.S. Agency for International
                                           Development Office of Acquisition and Assistance; the
                                           Commander U.S. Army Corps of Engineers; and the
                                           Commander U.S. Central Command Joint Theater
                                           Support Contracting Command:
                                            Develop procedures to help contractors obtain                Closed–       Revenue       Establish, improve,   Improve award,
                                             appropriate documentation of tax-exempt status with          Implemented   generation/   or follow existing    oversight, and
                                             the Afghan government.                                                     financial     procedures,           management of
                                                                                                                        sector        policies, or other    contracts, grants,
                                                                                                                                      guidance              or cooperative
                                                                                                                                                            agreements

                                            Issue guidance and training to contracting officers on       Closed–       Revenue       Establish, improve,   Improve award,




SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                          Page 37
 Report          Report Title                Recommendation Text                                         Status        Sector(s)        Recommended           Intended
 Number and                                                                                                                             Action                Outcome
 Issue Date
                                                how to properly identify taxes in contracts and          Implemented   generation/      or follow existing    oversight, and
                                                invoices.                                                              financial        procedures,           management of
                                                                                                                       sector           policies, or other    contracts, grants,
                                                                                                                                        guidance              or cooperative
                                                                                                                                                              agreements

                                              Ensure through guidance and training that                 Closed–       Revenue          Recover or ensure     Improve award,
                                               contractors are reimbursed only for eligible tax          Implemented   generation/      appropriate use of    oversight, and
                                               payments.                                                               financial        funds                 management of
                                                                                                                       sector                                 contracts, grants,
                                                                                                                                                              or cooperative
                                                                                                                                                              agreements

 Audit 13-12     Department of State’s       To strengthen accountability over State-funded
                 Assistance Awards for       assistance awards provided to U.S. non-profit
 July 8, 2013
                 Afghanistan                 organizations, U.S. for-profit companies, foreign
                 Reconstruction Activities   organizations, and public international organizations for
                 Are Largely Unaudited       Afghanistan reconstruction, we recommend the U.S.
                                             Secretary of State:
                                              Establish a policy requiring audits of assistance         Closed–       Cross-cutting:   Establish, improve,   Improve award,
                                               awards to foreign organizations receiving State-          Implemented   Contract         or follow existing    oversight, and
                                               funded assistance on an annual basis using a risk-                      Award and        procedures,           management of
                                               based approach.                                                         Management       policies, or other    contracts, grants,
                                                                                                                                        guidance              or cooperative
                                                                                                                                                              agreements

                                              Clarify guidance to recipient organizations receiving     Closed–       Cross-cutting:   Establish, improve,   Improve award,
                                               State-funded assistance awards to specify which           Implemented   Contract         or follow existing    oversight, and
                                               standard terms and conditions apply—domestic or                         Award and        procedures,           management of
                                               overseas—based on whether the recipient                                 Management       policies, or other    contracts, grants,
                                               organization is U.S.-or foreign-based.                                                   guidance              or cooperative
                                                                                                                                                              agreements

                                              Develop a system to identify and prioritize awards to     Closed–       Cross-cutting:   Establish, improve,   Improve award,



SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                            Page 38
 Report           Report Title                Recommendation Text                                      Status        Sector(s)        Recommended           Intended
 Number and                                                                                                                           Action                Outcome
 Issue Date
                                                U.S. nonprofit organizations to determine whether      Implemented   Contract         or follow existing    oversight, and
                                                State should (a) request that awards be audited as                   Award and        procedures,           management of
                                                major programs by the organization’s Office of                       Management       policies, or other    contracts, grants,
                                                Management and Budget Circular A-133 auditors, or                                     guidance              or cooperative
                                                (b) contract for award-specific financial audits of                                                         agreements
                                                those awards.

                                               Revise State guidance to ensure that audit             Closed–       Cross-cutting:   Establish, improve,   Improve award,
                                                requirements for State-funded assistance awards        Implemented   Contract         or follow existing    oversight, and
                                                made to U.S. for-profit companies are clear and                      Award and        procedures,           management of
                                                consistent.                                                          Management       policies, or other    contracts, grants,
                                                                                                                                      guidance              or cooperative
                                                                                                                                                            agreements

 Audit 14-26-AR   Support for Afghanistan’s   To strengthen U.S. government efforts to develop
                  Justice Sector: State       Afghanistan’s justice sector, we recommend that the
 January 24,
                  Department Programs         Secretary of State:
 2014
                  Need Better Management
                                               Include in future Justice Sector Support Program       Open          Rule of law/     Establish, enhance,   Build and sustain
                  and Stronger Oversight
                                                and/or successor program contracts, specific,                        anti-            or implement          Afghan
                                                detailed explanations of the requirements to which                   corruption       performance           government
                                                the contractor will be held accountable, as well as                                   indicators or         capacity
                                                baseline data and target indicators to be used for                                    targets
                                                program and contract evaluation.

                                               Expedite completion of PAE Incorporated’s evaluation   Closed–       Rule of law/     Conduct or improve    Build and sustain
                                                of the Justice Sector Support Program’s Regional       Implemented   anti-            current               Afghan
                                                Justice Sector Training component and ensure it is                   corruption       assessments or        government
                                                shared with International Development Law                                             reviews               capacity
                                                Organization immediately upon its completion so that
                                                oversight can be provided in a timely, effective
                                                manner, and that the lessons learned identified in
                                                this evaluation are used in the design and
                                                implementation of the Justice Training Transition
                                                Program.



SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                          Page 39
 Report            Report Title                 Recommendation Text                                        Status        Sector(s)      Recommended           Intended
 Number and                                                                                                                             Action                Outcome
 Issue Date


                                                 Renegotiate the Bureau of International Narcotics        Open          Rule of law/   Modify contract       Build and sustain
                                                  and Law Enforcement Affairs’ letter of agreement with                  anti-          language or other     Afghan
                                                  International Development Law Organization to                          corruption     procurement action    government
                                                  include provisions that would secure the right of the                                                       capacity
                                                  U.S. government to audit and inspect all International
                                                  Development Law Organization records related to
                                                  how U.S. taxpayer funds are being spent on the
                                                  Justice Training Transition Program, and obtain any
                                                  information necessary to evaluate the performance
                                                  and effectiveness of International Development Law
                                                  Organization’s implementation of the Justice Training
                                                  Transition Program.

                                                 In cooperation with other U.S. agencies managing rule    Open          Rule of law/   Establish, improve,   Build and sustain
                                                  of law programs in Afghanistan, finalize the updates                   anti-          or implement a        Afghan
                                                  to the 2009 U.S. Government Rule of Law Strategy                       corruption     plan or strategy      government
                                                  within 3 months, so that timely decisions can be                                                            capacity
                                                  made to guide the development and coordination of
                                                  current and future justice sector programs in
                                                  Afghanistan.

 Financial Audit   Department of State’s        Given the results of the audit, SIGAR recommends that
 13-11             Afghanistan Media Project:   the Grants Officer:
                   Audit of Incurred Costs by
 July 26, 2013                                   Determine the allowability of and recover, as            Open          Education      Recover or ensure     Improve award,
                   HUDA Development
                                                  appropriate, $2,405,102 in questioned costs                                           appropriate use of    oversight, and
                   Organization Afghanistan
                                                  ($173,469 ineligible and $2,231,633 unsupported)                                      funds                 management of
                                                  identified in the report.                                                                                   contracts, grants,
                                                                                                                                                              or cooperative
                                                                                                                                                              agreements

                                                 Advise HUDA Development Organization Afghanistan         Closed–       Education      Establish, improve,   Strengthen
                                                  to address the 15 internal control findings identified   Implemented                  or follow existing    internal controls
                                                  in the report.                                                                        procedures,



SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                            Page 40
 Report            Report Title                  Recommendation Text                                         Status        Sector(s)   Recommended           Intended
 Number and                                                                                                                            Action                Outcome
 Issue Date
                                                                                                                                       policies, or other
                                                                                                                                       guidance

                                                  Advise HUDA Development Organization Afghanistan          Closed–       Education   Establish, improve,   Improve award,
                                                   to address the six compliance findings identified in      Implemented               or follow existing    oversight, and
                                                   the report.                                                                         procedures,           management of
                                                                                                                                       policies, or other    contracts, grants,
                                                                                                                                       guidance              or cooperative
                                                                                                                                                             agreements

 Financial Audit   Department of State’s         Given the results of the audit, SIGAR recommends that
 14-11-FA          Demining Activities in        the Grants Officer:
                   Afghanistan: Audit of Costs
 December 3,                                      Determine the allowability of and recover, as             Closed–       Security    Recover or ensure     Improve award,
                   Incurred by Afghan
 2013                                              appropriate, $202,854 in questioned costs identified      Implemented               appropriate use of    oversight, and
                   Technical Consultants
                                                   in the report.                                                                      funds                 management of
                                                                                                                                                             contracts, grants,
                                                                                                                                                             or cooperative
                                                                                                                                                             agreements

                                                  Recover, as appropriate, the estimated $8,762 in          Closed–       Security    Recover or ensure     Improve award,
                                                   interest revenue earned from advances provided.           Implemented               appropriate use of    oversight, and
                                                                                                                                       funds                 management of
                                                                                                                                                             contracts, grants,
                                                                                                                                                             or cooperative
                                                                                                                                                             agreements

                                                  Advise Afghan Technical Consultants to address the        Closed–       Security    Establish, improve,   Improve award,
                                                   six internal control findings identified in the report.   Implemented               or follow existing    oversight, and
                                                                                                                                       procedures,           management of
                                                                                                                                       policies, or other    contracts, grants,
                                                                                                                                       guidance              or cooperative
                                                                                                                                                             agreements

                                                  Advise Afghan Technical Consultants to address the        Closed–                   Establish, improve,   Improve award,



SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                           Page 41
 Report             Report Title                Recommendation Text                                       Status          Sector(s)       Recommended           Intended
 Number and                                                                                                                               Action                Outcome
 Issue Date
                                                   five compliance findings identified in the report.     Implemented     Security        or follow existing    oversight, and
                                                                                                                                          procedures,           management of
                                                                                                                                          policies, or other    contracts, grants,
                                                                                                                                          guidance              or cooperative
                                                                                                                                                                agreements

 Inspection 14-     Justice Center in Parwan    To ensure that additional U.S. taxpayer dollars are not   Closed–         Rule of law/    Establish, improve,   Improve award,
 07                 Courthouse: Poor            wasted, we recommend that the Commander, U.S.             Implemented     anti-           or follow existing    oversight, and
                    Oversight Contributed to    Central Command, and the U.S. Secretary of State                          corruption      procedures,           management of
 October 25,
                    Failed Project              identify the reasons for poor oversight of the Justice                                    policies, or other    contracts, grants,
 2013
                                                Center in Parwan courthouse construction contract and                                     guidance              or cooperative
                                                establish processes to ensure such problems do not                                                              agreements
                                                reoccur.

 Source: SIGAR analysis
 Notes: a Recommendation closed because State failed to implement it in a timely manner and the recommendation was rendered moot.
 b   Recommendation closed because we planned additional audit work on the subject of the recommendation.
 c Recommendation    closed because although State did not implement the recommendation, it took some actions towards addressing the general intent of the recommendation.
 d Recommendation closed because although the recommendation was made to multiple agencies, including State, other agencies took responsibility for implementing the

 recommendation.
 e Recommendation    closed because State did not concur with the recommendation and took no action.




SIGAR Audit 14-83-AR/Recommendations to State                                                                                                                                Page 42
APPENDIX III - ADDITIONAL TABLES

The following tables provide additional information regarding our analysis of recommendations made to the
Department of State (State). Tables 3 and 4 list the number of recommendations made to State per
recommended action and intended outcome, respectively. Tables 5, 6, and 7 list the number of
recommendations per intended outcome category for those recommendations that were implemented by
State, for those recommendations that were not implemented by State, and for those recommendations that
remain open, respectively.



Table 3 - All SIGAR Recommendations Made to State, by Recommended Action
                                                                           Number of         Percent of Total
Recommended Action
                                                                        Recommendations     Recommendations

Establish, improve, or follow existing procedures, policies, or other
                                                                              33                 29.73%
guidance

Establish, improve, or implement a plan or strategy                           18                 16.22%

Recover or ensure appropriate use of funds                                    12                 10.81%

Modify contract language or other procurement action                          10                 9.01%

Conduct or improve current assessments or reviews                              9                 8.11%

Ensure appropriate personnel                                                   8                 7.21%

Establish or enhance reporting or reporting requirements                       8                 7.21%

Implement agreements and ensure coordination                                   6                 5.41%

Establish, enhance, or implement performance indicators or targets             5                 4.50%

Establish or improve a database or information system                          2                 1.80%

Totals                                                                       111                100.00%

Source: SIGAR analysis
Note: Percentages may not total to 100 percent due to rounding.




Table 4 - All SIGAR Recommendations Made to State, by Intended Outcome
                                                                             Number of       Percent of Total
Intended Outcome
                                                                          Recommendations   Recommendations

Improve award, oversight, and management of contracts, grants, or
                                                                                   30             27.03%
cooperative agreements

Build and sustain Afghan government capacity                                       23             20.72%

Ensure accountability over direct assistance funds                                 16             14.41%




SIGAR Audit 14-83-AR/Recommendations to State                                                             Page 43
Increase coordination and information sharing                                 16               14.41%

Improve the opportunities and lives of Afghan women                            7                6.31%

Strengthen internal controls                                                   6                5.41%

Ensure construction of facilities are completed and used as intended           3                2.70%

Ensure proper planning and management of resources                             3                2.70%

Ensure development of Afghanistan’s power sector                               2                1.80%

Ensure projects achieve counter-insurgency goals                               2                1.80%

Improve security of personnel or infrastructure                                2                1.80%

Ensure sustainability of reconstruction projects                               1                0.90%

Totals                                                                       111              100.00%

Source: SIGAR analysis
Note: Percentages may not total to 100 percent due to rounding.




Table 5 - Recommendations Implemented by State, by Intended Outcome
                                                                         Percent of All
                                                      Number of                            Percent of Total
Intended Outcome                                                         Implemented
                                                   Recommendations                        Recommendations
                                                                       Recommendations

Improve award, oversight, and management of
                                                          25                30.12%             22.52%
contracts, grants, or cooperative agreements

Build and sustain Afghan government capacity              13                15.66%             11.71%

Increase coordination and information sharing             11                13.25%             9.91%

Ensure accountability over direct assistance
                                                          10                12.05%             9.01%
funds

Strengthen internal controls                               6                7.23%              5.41%

Improve the opportunities and lives of Afghan
                                                           5                6.02%              4.50%
women

Ensure construction of facilities are completed
                                                           3                3.61%              2.70%
and used as intended

Ensure proper planning and management of
                                                           3                3.61%              2.70%
resources

Ensure development of Afghanistan’s power
                                                           2                2.41%              1.80%
sector

Ensure projects achieve counter-insurgency
                                                           2                2.41%              1.80%
goals


SIGAR Audit 14-83-AR/Recommendations to State                                                          Page 44
Improve security of personnel or infrastructure            2                    2.41%                1.80%

Ensure sustainability of reconstruction projects           1                    1.20%                0.90%

Totals                                                    83                   100.00%              74.77%

Source: SIGAR analysis
Note: Percentages may not total to 100 percent or to 74.77 percent due to rounding.




Table 6 - Recommendations Not Implemented by State, by Intended Outcome
                                                                         Percent of All Not
                                                      Number of                                 Percent of Total
Intended Outcome                                                           Implemented
                                                   Recommendations                             Recommendations
                                                                         Recommendations

Build and sustain Afghan government capacity              7                     29.17%               6.31%

Ensure accountability over direct assistance
                                                          6                     25.00%              5.41%
funds

Increase coordination and information sharing             5                     20.83%              4.50%

Improve award, oversight, and management of
                                                          4                     16.67%              3.60%
contracts, grants, or cooperative agreements

Improve the opportunities and lives of Afghan
                                                          2                     8.33%               1.80%
women

Totals                                                   24                   100.00%               21.62%

Source: SIGAR analysis
Note: Percentages may not total to 100 percent or to 21.62 percent due to rounding.




Table 7 - Open Recommendations Made to State, by Intended Outcome
                                                      Number of          Percent of All Open    Percent of Total
Intended Outcome
                                                   Recommendations       Recommendations       Recommendations

Build and sustain Afghan government capacity              3                    75.00%               2.70%

Improve award, oversight, and management
of contracts, grants, or cooperative                      1                    25.00%               0.90%
agreements

Totals                                                    4                   100.00%               3.60%

Source: SIGAR analysis
Note: Percentages may not total to 100 percent or to 3.60 percent due to rounding.




SIGAR Audit 14-83-AR/Recommendations to State                                                                Page 45
APPENDIX IV - COMMENTS FROM THE DEPARTMENT OF STATE




SIGAR Audit 14-83-AR/Recommendations to State         Page 46
APPENDIX V - ACKNOWLEDGMENTS

Tara Chapman, Senior Program Analyst
Daniel Tessler, Program Analyst




SIGAR Audit 14-83-AR/Recommendations to State   Page 47
                                 This audit report was conducted under
                                       project code SIGAR-093A.




SIGAR Audit 14-83-AR/Recommendations to State                            Page 48
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
